<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]


 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009 

                              ----------                              


                       WEDNESDAY, APRIL 23, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:33 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Stevens, Cochran, Domenici, and 
Shelby.

                         DEPARTMENT OF DEFENSE

                         Missile Defense Agency

STATEMENT OF LIEUTENANT GENERAL HENRY A. OBERING III, 
            UNITED STATES AIR FORCE, DIRECTOR

             OPENING STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. On behalf of the subcommittee, I'm very 
pleased to welcome Lieutenant General Obering, Director of the 
Missile Defense Agency, and Lieutenant General Campbell, who 
wears three hats, Commanding General of the U.S. Army Space and 
Missile Defense Command, the U.S. Army Forces Strategic 
Command, and the Joint Functional Component Command for 
Integrated Missile Defense.
    These distinguished gentlemen are here before the 
subcommittee to discuss the fiscal year 2009 budget request for 
missile defense.
    General Obering, I've been informed that this will very 
likely be your last time to testify before this subcommittee as 
Director of the Missile Defense Agency, and I wish to thank you 
for your tireless service and dedication to the mission and 
congratulations on the many accomplishments achieved during 
your tenure as head of the agency.
    This has been a good year for missile defense. After 25 
years and over $100 billion spent, the United States finally 
has a system in place that could be operational, if necessary.
    Now that systems like the terminal high altitude area 
defense (THAAD) the aegis sea-based missile defense, and the 
ground-based system (GMD) are showing promise, it is time to 
get these missile defense capabilities fielded and operational. 
It's time to move from research and development to fielding 
systems that are fully tested and capable.
    We have the pillars in place to do this with GMD, aegis and 
THAAD. These programs require our full attention. They'll start 
as the basis of our missile defense capability for decades to 
come.
    There are many issues that I hope you'll address today 
regarding the $9.3 billion budget request before the 
subcommittee, including the status of negotiations for the 
European Third Site, shortfalls in the target inventory, and 
progress in overcoming countermeasures.
    And I wish to thank you both for appearing before the 
subcommittee and I look forward to hearing your remarks.
    May I now call upon the vice chairman of the subcommittee?

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much, Mr. Chairman. I join 
you in welcoming our witnesses this morning and look forward to 
their testimony.
    This gives us an opportunity to really catch up and be up 
to date with regard to the missile defense policies and changes 
in the program. The threat continues to increase and I think 
that providing combatant commanders with the defensive weapons 
they need to deter an attack against our homeland deployed 
forces is absolutely essential to our national security.
    Our subcommittee has consistently supported missile defense 
programs with an emphasis on development, testing, fielding and 
improvement of effective near-term missile capability, and 
missile defense capabilities. I believe the subcommittee will 
continue to support these near-term capabilities as well as 
enhancing our Nation's ability to defeat the future missile 
threats. So we look forward to your testimony and I understand 
there may be a small video.
    Thank you.
    Senator Inouye. Thank you very much. Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you. I'm pleased to 
join you and Senator Stevens in welcoming General Obering and 
General Campbell to this hearing.
    We're all well aware of the fact that ballistic missiles 
pose an increasing threat to our Nation, to our military forces 
and to our interests throughout the world. It is a disturbing 
reality that North Korea and Iran continue to pursue mobile 
solid fuel missiles capable of being launched on short notice 
and capable of carrying warheads with the potential for mass 
destruction. North Korea continues its efforts to export 
missiles and missile technology.
    In the face of these realities, it is imperative that we 
provide the Department of Defense and the Missile Defense 
Agency in particular the resources necessary for the defense of 
our country and our interests against these threats.
    We deeply appreciate General Obering's and General 
Campbell's leadership in this effort and we welcome you to the 
hearing.
    Senator Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, I'd just like to echo what 
you've been saying here.
    Welcome, General Obering, General Campbell, and tell them I 
believe you're on the right track. You're working hard and 
you've got a lot to share today and I look forward to hearing 
it.
    Senator Cochran. Thank you, sir.
    Senator Inouye. Senator Domenici.
    Senator Domenici. Mr. Chairman, I have no comments.
    Senator Inouye. Thank you, sir. And now it's my pleasure to 
introduce General Obering.
    General Obering. Thank you very much, sir.
    Good morning, Mr. Chairman, Senator Stevens, distinguished 
members of the subcommittee.
    I want to thank this subcommittee personally for the 
tremendous support that we have indeed received from you over 
the years. As the Director of the Missile Defense Agency, it is 
my role to develop, test, and initially field an integrated 
layered ballistic missile defense system.
    For 2009, we are requesting $9.3 billion for this mission. 
I want to point out that approximately 75 percent is for near-
term capabilities with the remainder budgeted for longer-term 
elements that we think are prudent to address an uncertain 
future.
    To lay the foundation for our budget request, I would like 
to point out why missile defense is so critically needed. There 
were approximately 120 foreign missile launches last year 
around the world. Two countries in particular, North Korea and 
Iran, continue to be very troubling with their pace of missile 
development, testing and proliferation.
    Iran's pursuit of missiles with ranges exceeding what they 
would need in a regional conflict, coupled with their 
continuing uranium enrichment, emphasizes why it's so important 
that we field and integrate long-range defenses with shorter-
range North Atlantic Treaty Organization (NATO) capabilities in 
the European Theater.
    Our request for 2009 builds on our record of continuing 
success. I am happy to report that 2007 was the best year ever 
in missile defense and it reflects the hard work of thousands 
of men and women around the country. We have now fielded two 
dozen interceptors between Alaska and California to address the 
long-range threat. We've modified 17 aegis ships for the long-
range tracking mission, 12 of which are also capable of 
launching the 25 standard missile (SM-3) sea-based interceptors 
to address short-range threats that we've deployed.
    We've expanded our center network and deployed additional 
command and control capabilities to the combatant commanders, 
and with NATO's recent recognition of the emerging missile 
threat, its endorsement of our long-range defense proposals and 
its tasking to propose options for shorter-range protection, we 
will be able to defend our deployed forces and allies in that 
important theater in the future with your support.
    Our success is also reflected in our increasingly complex 
and realistic test program. With the 10 of 10 successful 
intercepts in 2007, we have now achieved 34 of 42 successful 
hit-to-kill intercepts since 2001. We have not had a major 
system failure in our flight test program now in over 3 years.
    Two relatively recent milestones are also worth 
highlighting. One was the success of our allied partner Japan 
in their first intercept flight test off the coast of Hawaii in 
December of which we and the Japanese are extremely proud; and 
two, we were able to modify our sea-based element to shoot down 
the errant satellite in February with just 6 weeks' notice. 
While this was not a test of our missile defense system, it 
does powerfully demonstrate why we need tools for an uncertain 
future.
    Now, sir, with your permission, I would like to show you 
video of our test and our satellite intercept, if that's okay. 
What you're going to see, first of all, is the test, the 
terminal high altitude air defense test (THAAD), that we 
conducted off the coast of California--I mean, off Hawaii. Go 
ahead.
    This occurred in April 2007 and what you're going to see is 
the target missile here is launched from a ship off the coast, 
about 250 miles off the coast of Hawaii. This was done very 
easily, in terms of being able to do this off a ship and that's 
something I'd be happy to address in questioning, and then we 
launched the interceptor from the island of Kauai and, Senator 
Inouye, I know you're very familiar with that.
    This is our land-based mobile that can operate just inside 
and just outside the atmosphere. Here's a close up of the 
interceptor as it egresses the canister. Now this interceptor 
consists of a kill vehicle and a single booster and you'll see 
the fly-out of the interceptor here, a couple of different 
angles, and then you'll also see the separation between the 
booster and the kill vehicle in this next frame.
    Now I want you to see how energetic this is. There's the 
separation and the debris. There goes the kill vehicle on its 
way. If you look very closely, you'll see two pieces come off 
the kill vehicle which are the shroud that protects its sensor 
and then next you'll see the kill vehicle rockets that are 
adjusting as the target comes into the picture from the left.
    Now this intercept occurred just on the edges of space and 
we totally destroyed that unitary target.
    Now if you go back, the next one I want to show you is our 
long-range test that we conducted last September. In this 
situation, we're trying to replicate a long-range shot from 
North Korea into the United States and an intercept from 
Alaska.
    So to replicate that, we launch a target from Alaska, from 
Kodiak Island, that I know Senator Stevens is very familiar 
with, and then we launch the interceptor from California. That 
gives us the replication of the operational conditions that 
we're looking for.
    This is a camera that's mounted on the aft of the target as 
we launch. It's part of our data collection opportunities. Now 
in this case, we had an operationally realistic target. We had 
an operational radar that gave us the initial weapons control, 
fire control plan. We used soldiers at the console that were 
not connected to the test net and we used an operationally 
configured interceptor that we flew out of California.
    In the next shot, you're going to see the location of the 
interceptor on the west coast. This is identical to the 
configuration that we have deployed in Alaska as well as in 
Vandenburg. You'll notice in the close up, there's the clam 
shell doors of the silo opening and the egress of the 
interceptor.
    Now this is a three-stage interceptor. It is the largest 
that we have in our inventory and it is the only interceptor 
capable of engaging the long-range missiles because of the 
speed involved.
    We propose a two-stage version of this in which we just 
remove the third stage for the Poland and the European 
environment.
    Here's the staging of the first stage and the altitude of 
this intercept will be hundreds of kilometers in space and, of 
course, that is also important when you're trying to minimize 
any effects on the ground.
    The first thing you're going to see is the infrared of the 
intercept in both real and slow motion and then, very 
interestingly, you're going to see exactly what the kill 
vehicle sees and I'll walk you through that and that is, you're 
going to see three boxes come up and those are sensors on the 
kill vehicle and it's going through and if you remember that 
debris from the interceptor separation, we get that also with 
the target.
    So little boxes will come up and start tracking those 
objects. They could be debris. They could be a third stage, et 
cetera. It's going through and determining what is the warhead 
invading on it and then you'll see the warhead come up in these 
two frames just before we intercept right there and right 
there.
    So that demonstrates the ability, for example, to sort 
through different objects it sees and go after the warhead as 
part of the logic.

                         SATELLITE INTERCEPTOR

    If you go back and then finally to the next slide, I just 
want to walk you through this. About 7 to 10 days before 
Christmas, I was called by the National Reconnaissance Office 
Director Scott Large and he asked for help in destroying the 
satellite that they had lost communication with and was coming 
back in with a very toxic payload that could have been 
potentially hazardous to humans.
    It took us a couple weeks to analyze and it turned out that 
both the ground-based midcourse and aegis all had capability--
if they were modified to go do this mission. The aegis was the 
easiest to modify and also represented the most flexibility and 
the minimum impact to our program overall, so that's why we 
chose that.
    We didn't modify the ship system, the radar and the kill 
vehicle to be able to do this mission, and then on the 20th of 
February we launched one just north of Hawaii on the U.S.S. 
Lake Erie.
    Now what I want to point out here at the bottom, we had to 
hit that tank. We had to hit and destroy that hydrazine tank on 
the satellite and so we ran through our modeling simulation, we 
wanted to see what happened, what were the risk of that, what 
were the potential possibilities of being successful.
    What you see in the bottom left is a picture of the radar 
image. If we hit the satellite but did not hit that tank, that 
would not have been a success, and then if you see this, this 
is the prediction from our modeling and simulation of what it 
would look like if we hit the tank.
    Now if you go ahead and click, Steve, that's the real 
picture that we got. So our models and sims did a pretty good 
job of predicting what it would look like were we successful, 
and if you go ahead and click on it, I'll show you very 
quickly, this is the video.
    This was done by aegis. It was a Lake Erie sea-based 
interceptor that we had modified. One thing that's important to 
point out, the ship could not do this by itself. We had to feed 
it offboard information because the satellite was traveling too 
fast for that ship to be able to engage it. So we had a whole 
sensor network that we were using data from to inject it 
offboard, from offboard the ship.
    There's the staging of the interceptor and then you'll see 
the video that we have. The first one is a Halo aircraft. 
That's focused on the satellite and there's the intercept and 
the next one is another Halo aircraft that was focused on the 
interceptor and I'll show you one of the real tell-tale signs 
we were looking for in the intercept was the presence of 
hydrazine right here.
    This is focused on the interceptor and as you see, there 
will be a half-moon shape that comes up here and that was 
exactly what we were looking for in terms of the atmospheric 
interaction with the hydrazine. So from different 
phenomenology, we confirmed that we were successful.
    Now concerning closing, I just wanted to point out that 
we've been able to put all of this critical capability into the 
hands of the warfighters so effectively and so quickly over the 
past several years because of the authorities that have been 
given to the Missile Defense Agency and the nontraditional 
defense acquisition approach that you have allowed us to 
pursue.

                           PREPARED STATEMENT

    I want to thank you and all of you and I look forward to 
your questions.
    Thank you.
    Senator Inouye. I thank you very much, General Obering.
    [The statement follows:]
     Prepared Statement of Lieutenant General Henry A. Obering III
    Good morning, Chairman Inouye, Senator Stevens, distinguished 
Members of the Committee. Thank you for this opportunity to discuss the 
Department of Defense's fiscal year 2009 Missile Defense program and 
budget. As Director of the Missile Defense Agency (MDA), I have the 
privilege of leading an outstanding group of thousands of men and women 
who are working hard every day to develop, test and field an 
integrated, layered ballistic missile defense system to defend the 
United States, our deployed forces, and our allies and friends against 
ballistic missiles of all ranges in all phases of their flight. I want 
to thank this Committee for the support we have received for this 
critical defense program.
    We are requesting $9.3 billion in fiscal year 2009 for missile 
defense. Roughly 75 percent of this request, or $7 billion, will be 
allocated to the near-term development and fielding of missile defense 
capabilities. Of this amount, $715 million is for sustaining the 
capabilities we already have in the field today. I also want to 
highlight that, as has been the pattern for several years now, we will 
be spending about $2 billion of the funding in fiscal year 2009 (more 
than 20 percent of the missile defense budget) on test activities.
    The Ballistic Missile Defense System (BMDS) is daily becoming more 
integrated, robust, and global. The BMDS already includes fielded 
assets operated by Air Force, Army, and Navy units under the integrated 
control of Combatant Commanders. Our current, limited homeland defense 
against long-range ballistic missiles will soon be bolstered by 
additional interceptors in Alaska and the upgrade of an existing radar 
in Greenland to protect against enemy launches from the Middle East.
    The defense of deployed forces, allies, and friends against short- 
to medium-range ballistic missiles in one region/theater will be 
buttressed by additional Standard Missile (SM)-3 interceptors, more 
Aegis BMD engagement-capable warships, the initial Terminal High 
Altitude Area Defense (THAAD) fire units, and additional sea-based 
terminal interceptors. Tying these assets together will be a global 
command, control, battle management and communications capability.
    In the near future, MDA's capability development program is 
expected to yield enhanced capabilities to discriminate between enemy 
warheads and countermeasures and options for ``multiple kill'' 
capabilities to meet future challenges. In the longer term, we will 
complete the development of a boost phase defense capability.
    Recent flight tests are confirming technological progress and 
operational effectiveness for short-, medium-, and long-range defensive 
capabilities. In 2007, MDA and the military services executed 10 of 10 
successful intercepts across all ranges of our missile defense 
elements.
    As missile defense capabilities expand worldwide, international 
cooperation with allies and friends is dramatically increasing. Earlier 
this month the United States and the Czech Republic completed 
negotiations on a missile defense agreement to station a midcourse X-
band radar in the Czech Republic to track ballistic missiles. Assuming 
we conclude an agreement with Poland and obtain congressional approval 
to proceed with the European Site Initiative, MDA intends to begin site 
construction for additional long range interceptors and the fixed-site 
radar to defend allies and deployed forces in Europe and expand the 
U.S. homeland defense against limited Iranian long-range threats. On 
April 3, 2008, in recognition of the increasing threat posed by 
ballistic missiles, all 26 nations of the North Atlantic Treaty 
Organization (NATO) formally endorsed the deployment of the European-
based U.S. missile defense assets. NATO also committed to working with 
the United States to link this capability to any future NATO-wide 
missile defense architecture.
    Also, we have undertaken substantive cooperative efforts with 
European, Middle Eastern, and Asian nations. With the purchase of Aegis 
BMD and Patriot Advanced Capability-3 assets, and with our fielding of 
a transportable X-band radar at Shariki, Japan is in the process of 
fielding a multilayered system interoperable with the U.S. system. 
Further, with MDA's support, the Department of Defense participated 
with Israel to develop an Israeli missile defense architecture that can 
meet threats expected in the next decade. We also held meetings with 
senior Russian officials and technical experts to discuss both threat 
perceptions and missile defense cooperation, including the potential 
for partnering with Russia in a joint regional architecture.
    Mr. Chairman, one last point before I continue. In February the 
Department of Defense called on our country's missile defenses to 
destroy a large tank of toxic fuel onboard an out-of-control U.S. 
satellite about to reenter the Earth's atmosphere. The uncertainty of 
when and where the satellite would reenter, and the near certainty that 
the fuel tank would survive reentry and possibly break up on Earth, 
drove the urgency of this mission. Using an extensively modified SM-3 
interceptor and a modified Aegis Weapon System onboard the U.S.S. Lake 
Erie, the Navy successfully destroyed the tank. The Department 
undertook this operation, carefully choosing an intercept altitude that 
would not add to the debris currently in orbit, to protect against the 
possible risk to life that a natural reentry of the satellite could 
have posed. After engagement, the toxic hydrazine dissipated in space, 
and, by now, most of the debris from the satellite body has burned up 
in the Earth's atmosphere.
    This was a very successful joint mission involving the Navy, U.S. 
Strategic Command, the Missile Defense Agency, the National Aeronautics 
and Space Administration, the National Reconnaissance Office, and other 
national security offices. Missile Defense Agency engineers worked 
closely with the Navy to modify the interceptor and the Aegis weapon 
system for this one-time engagement. This was a case where the missile 
defense system was unexpectedly pushed into service and performed 
exceptionally well. While this stands as an example of what the nation 
received for its investment in missile defense, I want to be clear that 
it does not represent an operational anti-satellite capability. The 
time and level of technical expertise it took to plan and orchestrate 
this mission, the split-second fragility of the once-per-day shot 
opportunities, and the relatively low altitude of the satellite's 
decaying orbit did not approach the responsive and robust capability 
that would be needed to attack enemy space assets in wartime.
                             threat update
    To lay the foundation for our budget request, let me review why 
missile defense is so critically needed. There remains intense interest 
in several foreign countries to develop ballistic missile capabilities. 
In fact, there were over 120 foreign ballistic missile launches in 
2007, significantly exceeding what we observed in previous years. This 
comes on the heels of a very active 2006, during which time both North 
Korea and Iran demonstrated an ability to orchestrate campaigns 
involving multiple and simultaneous launches using missiles of 
different ranges. Currently, North Korea has hundreds of deployable 
short- and medium-range ballistic missiles and is developing a new 
intermediate-range ballistic missile and a new short-range, solid-
propellant ballistic missile, which it test-launched in June 2007. Iran 
has the largest force of ballistic missiles in the Middle East (several 
hundred short- and medium-range ballistic missiles), and its highly 
publicized missile exercise training has enabled Iranian ballistic 
missile forces to hone wartime skills and new tactics.
    North Korea's ballistic missile development and export activities 
remain especially troubling. Pyongyang continues to press forward with 
the development of a nuclear-capable ICBM. While the firing of the 
Taepo Dong 2 in July 2006, launched together with six shorter-range 
ballistic missiles, failed shortly after launch, North Korean engineers 
probably learned enough to make modifications, not only to its long-
range ballistic missiles, but also to its shorter-range systems. North 
Korea's advances in missile system development, particularly its 
development of new, solid fuel intermediate-range and short-range 
ballistic missiles, could allow it to deploy a more accurate, mobile, 
and responsive force. North Korea's nuclear weapons program makes these 
advances even more troubling to our allies and the commanders of our 
forces in that region.\1\
---------------------------------------------------------------------------
    \1\ Oral Statement by the Director of the Defense Intelligence 
Agency, Lieutenant General Michael D. Maples to the Senate Select 
Committee on Intelligence Annual Threat Assessment Hearing, 5 Feb 2008 
http://www.dia.mil/publicaffairs/Testimonies/Statement29.pdf; Current 
and Projected National Security Threats to the United States, 
Lieutenant General Michael D. Maples, U.S. Army, Director, Defense 
Intelligence Agency, Statement for the Record, Senate Armed Services 
Committee, 27 February 2007 http://www.dia.mil/publicaffairs/
Testimonies/statement28.html.
---------------------------------------------------------------------------
    In addition to its uranium enrichment activity, Iran continues to 
pursue newer and longer-range missile systems and advanced warhead 
designs. Iran is developing an extended-range version of the Shahab-3 
that could strike our allies and friends in the Middle East and Europe 
as well as our deployed forces. It is developing a new Ashura medium-
range ballistic missile capable of reaching Israel and U.S. bases in 
Eastern Europe.\2\ Iranian public statements also indicate that its 
solid-propellant technology is maturing; with its significantly faster 
launch sequence, this new missile is an improvement over the liquid-
fuel Shahab-3.\3\ Iran has reportedly bought a new intermediate-range 
ballistic missile (IRBM) under development by North Korea; \4\ this 
underscores the urgent need to work with our allies in the North 
Atlantic Treaty Organization (NATO) to field and integrate long-range 
missile defenses in Europe. Moreover, Iran's development of a space 
launch vehicle using technologies and designs from its ballistic 
missiles means Iran could have an ICBM capable of reaching the United 
States by 2015.\5\
---------------------------------------------------------------------------
    \2\ Statement of Lieutenant General Michael D. Maples, 5 February 
2008.
    \3\ Acquisition of Technology Relating to Weapons of Mass 
Destruction and Advanced Conventional Munitions, 1 January to 31 
December 2005, Central Intelligence Agency, http://dni.gov/reports/
CDA%2011-14-2006.pdf.
    \4\ Statement of Lieutenant General Michael D. Maples, 5 February 
2008.
    \5\ Current and Projected National Security Threats to the United 
States Vice Admiral Lowell E. Jacoby, U.S. Navy Director, Defense 
Intelligence Agency Statement For the Record Senate Armed Services 
Committee, 17 March 2005 http://www.dia.mil/publicaffairs/Testimonies/
statement17.html.
---------------------------------------------------------------------------
    Syria is working to improve its ballistic missile capabilities and 
production infrastructure. Today Syria is capable of striking targets 
in Israel and Turkey, our southern NATO partner, using rockets and 
ballistic missiles. Syria can produce longer-range Scud variant 
missiles using considerable foreign assistance from countries such as 
North Korea and Iran.\6\ So our vigilance must extend well out into the 
future, when the threats we face today have grown and new threats may 
have emerged.
---------------------------------------------------------------------------
    \6\ Acquisition of Technology Relating to Weapons of Mass 
Destruction and Advanced Conventional Munitions, 1 January to 31 
December 2005, Central Intelligence Agency.
---------------------------------------------------------------------------
                 new missile defense program structure
    We have established a new block structure to organize our program 
of work and present our budget. The Agency has made this change to 
address concerns about transparency, accountability, and oversight and 
to better communicate to Congress and other key stakeholders. The new 
approach has several key tenets:
  --Blocks will be based on fielded missile defense capabilities that 
        address particular threats and represent a discrete program of 
        work--not on biennial time periods.
  --When MDA believes a firm commitment can be made to the Congress, 
        the Agency will establish schedule, budget, and performance 
        baselines for a block. Block schedule, budget, and performance 
        variances will be reported.
  --Once baselines are defined, work cannot be moved from one block to 
        another.
    Based on the above tenets, MDA has currently defined five blocks 
(see figure 1). Blocks 1.0, 3.0, and 4.0 deliver capabilities for long-
range defenses, while Blocks 2.0 and 5.0 deliver capabilities to 
address the short- and medium/intermediate-range threats.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Future blocks (Block 6.0, etc.) will be added when significant new 
capabilities are expected to be fielded based on technological 
maturity, affordability, and need. For example, a new Block 6.0 might 
include enhanced defense of the United States against complex 
countermeasures, drawing on volume kill capabilities from the multiple 
kill vehicle (MKV) program, improved discrimination capabilities on our 
integrated sensor, command and fire control network as well as upgraded 
hardware and software on our weapon systems.
    MDA's budget is organized through the period of the Future Years 
Defense Program based on the new block structure. Also, program funding 
that does not fit into Blocks 1.0 through 5.0 is assigned to four 
general categories:
  --Capability Development.--Technologies such as the Airborne Laser, 
        Multiple Kill Vehicle, Kinetic Energy Interceptor, Far-Term Sea 
        Based Terminal, Project Hercules and the Space Tracking and 
        Surveillance System, which address future challenges and 
        uncertainties.
  --Sustainment.--Operations and support of weapon systems, sensors, 
        and command and fire control components.
  --Mission Area Investment.--Activities that support multiple efforts 
        and cannot be reasonably assigned to a specific block or 
        capability development program (e.g., intelligence and 
        security; modeling and simulation; systems engineering and 
        testing cores; safety, and mission assurance).
  --MDA Operations.--Activities that support the Agency, such as 
        Management Headquarters and Base Realignment and Closure 
        (BRAC).
          highlights of budget submission for fiscal year 2009
    Our priorities in the fiscal year 2009 budget submission include 
near-term development, fielding, integration and sustainment of Blocks 
1.0 through 5.0; increasingly robust testing; and a knowledge-based 
Capability Development program.
Block 1.0
    We are nearing completion of the work in Block 1.0. We are 
requesting $59 million for fiscal year 2009, mostly to conduct 
additional system ground and flight tests to support a final Block 1.0 
capability declaration.
    This past year we saw an unprecedented pace of fielding of an 
integrated missile defense capability, much of it related to Block 1.0. 
In 2007 we emplaced 10 additional GBIs, for a total of 24 interceptors 
in missile fields at Fort Greely, Alaska, and Vandenberg Air Force 
Base, California. In 2008 we plan to increase interceptor inventories 
up to a total of 30 at the two sites. By the end of 2008, we will 
complete work installing the Long-Range Surveillance and Track (LRS&T) 
capability on 18 Aegis BMD ships. These ships will contribute to long-
range defense by passing early detection, cueing, and tracking data 
across communications lines into BMD system communication and battle 
manager nodes located at Fort Greely and in Colorado Springs.
    This past year we transitioned the transportable forward-based X-
band radar at Shariki Air Base, Japan, from the interim site to a 
permanent location. This radar provides precise early detection and 
tracking to increase the probability we will destroy any lethal target 
launched by North Korea. The Sea-Based X-band radar (SBX) completed 
crew training and testing off the coast of Hawaii and transited to the 
North Pacific to conduct a cold weather shakedown off Adak, Alaska, 
where it will be home-ported in 2009. The SBX participated in system 
flight tests this past year, including the September 28 long-range 
intercept test and the December 17 engagement of a medium-range 
separating target at sea by our ally, Japan. This summer the radar will 
again participate in a long-range intercept test.
    In 2007, we completed the fielding of C2BMC infrastructure to 
improve our ability to operate with Japan and receive direct feed from 
the Space-based Infrared System. We moved communications equipment and 
shelters to support the forward based X-band radar at Shariki and 
installed a second server suite at U.S. Pacific Command. We also began 
fielding enhanced C2BMC displays and improvements to our communications 
capabilities. The Parallel Staging Network we installed at U.S. 
Strategic, Northern, and Pacific Commands as part of the Concurrent 
Test, Training and Operations (CTTO) capability, will be completed this 
year. Without impeding the operational readiness of the system, CTTO 
allows the warfighter to conduct training and the Missile Defense 
Agency to continue with spiral upgrades, testing and development.
    By 2009 we plan to install additional planning and situational 
awareness capabilities to facilitate executive decision-making in the 
European Command. C2BMC capabilities also provide our senior Government 
leadership situational awareness of hostile ballistic missile 
activities and updates on the performance of the ballistic missile 
defense system.
Block 2.0
    Since 2002 we have expanded and improved terminal and midcourse 
defenses to defeat short- and medium-range threats from land and sea. 
We are requesting about $1.3 billion for fiscal year 2009 for Block 2.0 
fielding, development, and integration. This block represents the 
foundation of the capabilities required to protect forces we deploy 
abroad and our allies and friends, initially in a single region or 
theater of combat.
    We began fielding SM-3 interceptors in 2004. Block 2.0 comprises 71 
SM-3 Block I and IA interceptors (we will have 38 in inventory by the 
end of 2008). To date, we have converted 12 Aegis BMD LRS&T ships to 
engagement-capable ships. By year's end, we will have 18 Aegis BMD 
ships--15 destroyers and 3 cruisers--all of which will have 
surveillance and track as well as engagement capabilities. For the past 
three years, the Navy and MDA have collaborated on plans for a Sea-
Based Terminal defensive layer. We are upgrading the Aegis BMD weapon 
system, and the Navy is upgrading the SM-2 Block IV missile, the goal 
being to deploy up to 100 interceptors to provide a near-term terminal 
engagement capability on 18 Aegis BMD ships beginning in 2009.
    We are working closely with the Army to begin developing and 
fielding in 2009 two Terminal High Altitude Area Defense fire units, 
with full delivery in 2010 and 2011. THAAD is uniquely designed to 
intercept targets both inside and outside the Earth's atmosphere. 
Consisting of 48 interceptors and the associated radars and C2BMC, 
THAAD will provide transportable terminal protection from short- to 
medium-range ballistic missiles for our troops and our allies.
Block 3.0
    We are requesting about $1.7 billion for fiscal year 2009 to expand 
the defense of the United States to include limited Iranian long-range 
threats. Block 3.0 builds on the foundation established by Block 1.0. 
Block 3.0 provides 14 additional GBIs above what we plan to deploy by 
2008, along with two key radars needed for protection of the United 
States--the upgraded early warning radars at Fylingdales in the United 
Kingdom and at Thule in Greenland.
    This past year we completed operational testing of the Royal Air 
Force Fylingdales radar and made the radar available to the warfighter 
for emergency situations. In 2007 we began upgrades to the Thule radar 
and will continue to integrate it into the system by 2009. Together 
with the early warning radars in California, Alaska, and the United 
Kingdom, the Thule radar will ensure coverage of the United States 
against threats from the Middle East. In the Pacific theater, we will 
continue to enhance additional forward-based X-band radar capabilities 
in Japan and at other operating locations to meet warfighter needs.
    Block 3.0 also provides capabilities to defeat more sophisticated 
midcourse countermeasures. We are pursuing two parallel and 
complimentary approaches to counter complex countermeasures: first, 
more sophisticated sensors and algorithms to discriminate the threat 
reentry vehicle in the presence of countermeasures; and second, a 
multiple kill capability to intercept the objects identified by the 
discrimination systems as potential threat reentry vehicles. Block 3.0 
will focus on the first of these approaches. It includes upgrades to 
the Ground-Based Interceptors, sensors, and the C2BMC system. The full 
implementation of this approach will be conducted in phases, with the 
first phase referred to as ``Near Term Discrimination'' and the second 
phase as ``Improved Discrimination and System Track.''
Block 4.0
    We are requesting about $720 million for fiscal year 2009 for Block 
4.0 fielding, development, and integration. Block 4.0 fields sensors, 
interceptors, and the C2BMC infrastructure needed to improve protection 
of the United States and, for the first time, extend coverage to all 
European NATO allies vulnerable to long-range ballistic missile attack 
from Iran. This block focuses on deployment of the midcourse X-band 
radar, currently located at the Kwajalein test site, to the Czech 
Republic and the establishment of an interceptor field in Poland. By 
devaluing Iran's longer-range missile force, European missile defenses 
could help dissuade the Iranian Government from further investing in 
ballistic missiles and deter it from using those weapons in a conflict. 
We believe that the long-range defense assets we are planning to deploy 
to Central Europe offer the most effective capability for defeating 
this threat.
    The European Midcourse Radar would complement sensor assets 
deployed in the United Kingdom and Greenland and provide critical 
midcourse tracking data on threats launched out of the Middle East. The 
radar also would operate synergistically with the planned forward-based 
transportable X-band radar, jointly providing early threat detection 
and discrimination of the reentry vehicles.
    A European Interceptor Site will consist of up to 10 interceptors, 
the two-stage configuration of our flight-proven 3-stage GBI. A 2-stage 
interceptor has less burn time than the 3-stage version, which allows 
it to operate within the shorter engagement timelines expected. Nearly 
all of the components used in the 2-stage interceptor are identical to 
those already tested and fielded in the 3-stage interceptor, which 
means modifications required to design, develop and produce a 2-stage 
variant are minimal. Nor are such modifications unprecedented. In fact, 
the first 10 Ground-based Midcourse Defense integrated flight tests, 
conducted between January 1997 and December 2002, successfully utilized 
a 2-stage variant of the 3-stage Minuteman missile. As we do with all 
system elements and components, we have planned a rigorous 
qualification, integration, ground and flight testing program for the 
2-stage interceptor.
    Several countries in southern Europe do not face threats from 
Iranian long-range missiles. Yet these same countries are vulnerable to 
the shorter-range ballistic missiles currently fielded by Iran and 
Syria. Mobile system sensors for Aegis BMD, THAAD, and Patriot are 
designed to be augmented by other sensors, like the European Midcourse 
Radar, and their interceptors are designed to engage slower short- to 
medium-range ballistic missiles systems. Together with other NATO 
missile defense assets, these missile defense forces will protect 
European countries vulnerable to short- and medium-range ballistic 
missiles when integrated into the NATO command and control structure.
Block 5.0
    We are requesting $835 million for Block 5.0 for fiscal year 2009. 
This block builds on Block 2.0 to expand the defense of allies and 
deployed U.S. forces from short- to intermediate-range ballistic 
missile threats in two theaters. Block 5.0 will increase the number of 
SM-3 and THAAD interceptors and improve the performance of the Aegis 
BMD Weapons System and the SM-3 interceptor.
    The SM-3 Block IB interceptor, a critical Block 5.0 development 
effort, will have major modifications to include a much improved seeker 
and a Throttleable Divert and Attitude Control System (TDACS). When 
combined with processing upgrades to the Aegis BMD Weapons System, the 
more capable Block IB interceptor will more readily distinguish between 
threat reentry vehicles and countermeasures. The Block IB expands the 
battle space and enables more effective and reliable engagements of 
more diverse and longer-range ballistic missiles. This year we look 
forward to completing design and testing for the two-color seeker and 
TDACS and commencing the element integration of the SM-3 Block IB 
missile in 2009.
    Block 5.0 includes delivery of 23 SM-3 Block IA interceptors, 53 
SM-3 Block IB interceptors, 2 additional THAAD fire units with an 
additional 48 interceptors, one X-band transportable radar for forward 
deployment, and the associated C2BMC support.
            Development/Operational Testing
    Testing under operationally realistic conditions is an important 
part of maturing the BMDS in all five blocks. We have been fielding 
test assets in operational configurations in order to conduct 
increasingly complex and end-to-end tests of the system. Our testing to 
date has given us confidence in the BMD system's basic design, hit-to-
kill effectiveness, and operational capability. While the system is 
developmental, it is available today to our leadership to meet real 
world threats.
    Our flight tests are increasing in operational realism, limited 
only by environmental and safety concerns. Each system test builds on 
knowledge gained from previous tests and adds increasingly challenging 
objectives. The Director, Operational Test and Evaluation, the 
Operational Test Agencies, and the warfighting community are very 
active in all phases of test planning, execution, and post-test 
analysis. Using criteria established by the war fighter and the 
Agency's system engineers, all ground and flight tests provide data 
that we and the operational test community use to anchor our models and 
simulations and verify system functionality and operational 
effectiveness.
    In 2007, we conducted many system ground and flight tests. As 
stated earlier, last year we executed successfully a long-range ground-
based intercept, six SM-3 intercepts of separating and unitary targets, 
and three THAAD intercepts of unitary targets. As of today, we have 
demonstrated hit-to-kill in 34 of 42 attempts since 2001.
    After a legacy target failure in May 2007, we successfully 
completed Ground-based Midcourse Defense Flight Test-03a on September 
28, 2007. In this test, an operationally configured GBI launched from 
Vandenberg Air Force Base engaged a threat representative intermediate-
range target fired from Kodiak Island, Alaska, using sensor information 
from the operational upgraded early warning radar at Beale Air Force 
Base in California. Trained crews manning fire control consoles reacted 
within a specified window under limited-notice launch conditions. This 
test leveraged fielded hardware and fire control software as well as 
operational communications, tracking, and reporting paths. The Exo-
atmospheric Kill Vehicle successfully collided with the target near the 
predicted point of impact, destroying it. This was our most 
operationally realistic, end-to-end test of the long-range defenses to 
date. Though they were not official participants of the test, the Sea-
Based X-band radar and an Aegis BMD ship using its onboard SPY-1 radar 
also tracked the target and gathered data for post-test analysis.
    We also had enormous success with our integrated ground tests, 
which involve the operational long-range defense elements and employ 
the actual operational hardware. We test the system end-to-end by 
simulating engagements. These ground tests, conducted in a lab 
environment and in the field, involve the wider missile defense system 
community, to include the National Military Command Center, the 
Operational Test Agencies, and U.S. Northern Command. They teach us a 
great deal and give us confidence to move forward with our intercept 
tests. The most comprehensive to date, these tests demonstrated the 
ability of the system to execute multiple, simultaneous engagements 
using operational networks and communications and fielded system 
elements in different combinations. The war fighter also was able to 
evaluate tactics, techniques and procedures. In 2008 and 2009 we will 
continue our integrated ground test campaigns.
    We completed four U.S. sea-based tests and one allied sea-based 
intercept test in 2007. In all Aegis BMD tests, we do not notify the 
ship's crew of the target launch time, forcing crew members to react to 
a dynamic situation. This past year we successfully used Aegis BMD 
cruisers and destroyers to engage threat-representative short-range 
ballistic missiles and medium-range separating targets. We conducted a 
test with the U.S. Navy involving simultaneous engagements of a short-
range ballistic missile and a hostile air target, demonstrating an 
ability to engage a ballistic missile threat as the ship conducts self-
defense operations. In November, we simulated a raid attack on an Aegis 
BMD cruiser using two short-range ballistic missiles. The cruiser 
destroyed both targets.
    The December 2007 test off the coast of Kauai in Hawaii marked the 
first time an allied Navy ship successfully intercepted a ballistic 
missile target with the Aegis BMD midcourse engagement capability. The 
SM-3 successfully intercepted the medium-range separating target in 
space, verifying the engagement capability of the upgraded Japanese 
destroyer. It also marked a major milestone in the growing missile 
defense cooperative relationship between Japan and the United States.
    Terminal High Altitude Area Defense completed three intercept 
flight tests against threat-representative short-range unitary targets 
in the atmosphere and in space. In addition, the THAAD radar and fire 
control participated in two Aegis BMD flight tests to demonstrate 
THAAD-Aegis interoperability. These initial THAAD intercept tests at 
the Pacific Missile Range Facility in Hawaii demonstrated integrated 
operation of the system, including radar, launcher, fire control 
equipment and procedures, and the ability of the interceptor to detect, 
track and destroy the target. Soldiers of the 6th Air Defense Artillery 
Brigade stationed at Fort Bliss, Texas, operated all THAAD equipment 
during the tests, which contributed to operational realism.
    In 2007, the Missile Defense Agency conducted 25 major tests and 
successfully met our primary test objectives in 18 of 20 flight tests. 
In doing so, we used the test ranges available to us today to maximum 
capacity. These totals include three Patriot tests, two Arrow tests, 
and the U.S.-Japan cooperative test. Our test plans for 2008 and 2009 
will continue to use more complex and realistic scenarios for system-
level flight tests and demonstrate interceptor capabilities against 
more stressing targets.
    In 2008, we are planning two system-level long-range intercept 
tests, and two more in 2009, all of which will push the edge of the 
envelope in testing complexity. The tests in 2008 will involve targets 
launched from Kodiak, Alaska, and missile defense assets separated by 
thousands of miles. We are expanding the number of sensors available to 
cue the system and engage targets. In our next long-range test, we will 
involve the early warning radar at Beale and the forward-based X-band 
radar, temporarily sited at Juneau, Alaska. This test also will 
demonstrate integration of the Sea-Based X-band radar into the sensor 
support system. The intermediate-range target will have 
countermeasures. Later in 2008 Ground-based Midcourse Defense will 
attempt to defeat a longer-range threat-representative target and 
demonstrate the ability of the SBX to send tracking and discrimination 
data through Ground-based Midcourse Defense Fire Control and 
Communications to the Exo-atmospheric Kill Vehicle prior to engagement.
    We plan three Aegis BMD intercept tests in 2008 and 2009. In 2008 
we will demonstrate an intercept of a unitary, short-range ballistic 
missile target in the terminal phase of flight using a SM-2 Block IV 
interceptor. Later this year we will conduct the second Japanese 
intercept test against a medium-range target warhead. And in 2009 we 
will conduct an intercept flight test against a medium-range target to 
demonstrate an expanded battle space.
    The first test of THAAD this year will involve engagement of a 
separating target low in the atmosphere. In the fall we plan to 
demonstrate THAAD's salvo-launch capability against a separating 
target. In late spring 2009 THAAD will engage a complex separating 
target in space. And in 2009 we will increase test complexity by 
demonstrating THAAD's ability to destroy two separating targets in the 
atmosphere.
    In addition to our system flight- and ground-test campaigns, the 
Missile Defense Agency will continue to participate in Patriot combined 
developmental/operational tests as well as Air Force Glory Trip flight 
tests.
            Knowledge-Based Capability Development
    The proliferation of ballistic missile technologies and systems 
means we will face unexpected and more challenging threats in the 
future. We are requesting about $2.5 billion in fiscal year 2009 for 
capability development work to deliver advanced capabilities that will 
help ensure America's ballistic missile defense system remains 
effective and reliable and a major element in our national defense 
strategy well into this century.
    Destroying ballistic missiles in boost phase will deprive the 
adversary of opportunities to deploy in midcourse multiple reentry 
vehicles, sub-munitions, and countermeasures, thereby reducing the 
number of missiles and reentry vehicles having to be countered by our 
midcourse and terminal defenses. Success in the boost phase will 
increase the probability we will be successful in defeating an attack 
in the other defensive phases. As part of this layered defense 
strategy, we are developing the Airborne Laser (ABL) and Kinetic Energy 
Interceptors (KEI).
    ABL is being developed to destroy ballistic missiles of all ranges. 
In 2007, the ABL program met all of our knowledge point expectations 
and cleared the way for the installation of the high-power laser on the 
aircraft by the end of 2008. We completed in-flight atmospheric 
compensation demonstrations and conducted low power systems integration 
testing, successfully demonstrating ABL's ability to detect, track, 
target, and engage non-cooperative airborne targets. Next we will 
integrate the high power systems and gear up for a series of flight 
tests leading to a full demonstration and lethal shoot-down in 2009 of 
a threat-representative boosting target.
    The KEI program will provide mobile capabilities to intercept 
ballistic missiles in the boost, ascent or midcourse phases of flight. 
This multi-platform, multi-payload, rapidly deployable capability could 
not only extend the reach of the missile defense system, but it also 
will add another defense layer. In 2007, we completed hypersonic wind 
tunnel testing of the booster and successfully conducted static firings 
of the first- and second-stage motors. This year we are focusing on 
preparations for the 2009 flight test of the KEI booster, which, if 
successful, will demonstrate we are ready to proceed to intercept 
testing and integration into the system.
    We are pursuing parallel and complementary efforts to counter 
complex countermeasures. Project Hercules is developing a series of 
algorithms to exploit physical phenomenology associated with threat 
reentry vehicles to counter on-the-horizon advanced threats and 
counter-countermeasures for employment in system sensors, kill 
vehicles, and C2BMC. The algorithms will improve sensor and weapon 
element tracking and discrimination via data integration and multi-
sensor fusion data integration.
    In the years ahead we expect our adversaries to have midcourse 
countermeasures. The MKV program is developing a payload for 
integration on midcourse interceptors to address complex 
countermeasures by identifying and destroying all lethal objects in a 
cluster using a single interceptor. This past year we delivered the 
initial models and simulation framework for testing sophisticated 
battle management algorithms and developed the liquid fuel divert and 
attitude control system.
    Our strategy is to manage all future kill vehicle development under 
a single program office and acquire MKV payloads using a parallel path 
approach with two payload providers pursuing different technologies and 
designs. This strategy will allow us to better leverage industry 
experience and talent. The MKV approach leverages commonality and 
modularity of kill vehicle components on various land- and sea-based 
interceptors, to include KEIs, GBIs, and a Block IIB version of the SM-
3. The goal is to demonstrate a multiple kill capability in 2011 
through a series of component development and test events.
    We are undertaking significant upgrades to the BMD Signal Processor 
in the Aegis BMD weapons system. Through our cooperative program with 
Japan, we are upgrading the SM-3 Block I interceptor with the SM-3 
Block II to engage longer-range ballistic missiles. This faster 
interceptor will feature an advanced kinetic warhead with increased 
seeker sensitivity and divert capability. We also will implement 
upgrades to the Aegis BMD Weapons System. The first flight test is 
scheduled for 2012. The Far-Term Sea-Based Terminal program will expand 
upon the near-term capability provided by the SM-2 Block IV blast-
fragmentation interceptor by engaging longer-range threats. This year 
and next we will define weapons system requirements as we work toward 
initial fielding as early as 2015.
    We are developing the Space Tracking and Surveillance System (STSS) 
to enable worldwide acquisition and tracking of threat missiles. 
Sensors on STSS satellites will provide fire control data for 
engagements of threat reentry vehicles and, when combined with radar 
data, will provide improved threat object discrimination. In 2008 we 
will deliver two demonstration satellites scheduled for launch later in 
the year and a common ground station. We plan to use both targets of 
opportunity and dedicated targets to demonstrate STSS capabilities from 
lift-off through midcourse to reentry. The knowledge gained from these 
demonstrations will guide our decisions on the development of a follow-
on space sensor constellation.
    I believe the performance of the BMD system could be greatly 
enhanced someday by an integrated, space-based interceptor layer. Space 
systems could provide on-demand, near global access to ballistic 
missile threats, minimizing limitations imposed by geography, absence 
of strategic warning, and the politics of international basing rights. 
I would like to begin concept analysis and preparation for small-scale 
experiments. These experiments would provide real data to answer a 
number of technical questions and help the leadership make a more 
informed decision about adding this capability.
    We have had to restructure some development activities and cancel 
others as a result of reductions in our fiscal year 2008 budget. 
Reductions in funding for the European Site Initiative, STSS, ABL, and 
MKV programs will result in some schedule delays. Cuts in the system 
engineering work, including modeling and simulations, undermine our 
ability to develop and field an integrated system, which requires a 
collaborative effort by MDA and our industry partners that cuts across 
many disciplines and specialties. The ability to do this cross-cutting 
engineering work will become increasingly important as we move, for 
example, towards developing common kill vehicles and common 
interceptors.
    I remain deeply concerned about the future threat environment, and 
consequently believe each one of these efforts is critical to 
maintaining our defenses in the uncertain years ahead.
                            setbacks in 2007
    With our unprecedented success in 2007 came several setbacks. We 
experienced a target failure in our first attempt for FTG-03 as 
mentioned earlier. While this was only the second complete target 
failure in 42 intercept flight tests, it was a signal that we needed to 
revamp our target program, which is underway. We are at a critical 
juncture in the target program transitioning from the legacy booster 
motors to the more modern Flexible Target Family, and I intend to make 
this a high priority in 2008.
    In addition, we are investigating a nozzle failure that occurred in 
the second static firing of the KEI second stage. While investigation 
is underway, we plan to execute the first booster flight in 2009.
    We also experienced some cost growth in the THAAD, Aegis and GMD 
programs which is being addressed within the overall missile defense 
portfolio. The THAAD cost growth was due to test delays, additional 
insensitive munitions testing and its deployment to the Juniper Cobra 
09 exercise in Israel. Aegis cost growth was generated from extended 
work on the SM-3 Third Stage Rocket Motor and the Divert and Attitude 
Control System. This work also delays the delivery of the Block 1B 
interceptors by 1 year. GMD cost growth was due to the modifications 
required for the 2-stage version, the additional missile field in 
Alaska, and repair of the water damage silos.
                retaining integrated decision authority
    I would now like to turn to a topic very near and dear to me. I 
urge the Committee to continue its support of the integrated decision 
authority that the MDA Director has been given for the missile defense 
portfolio. As you know, working with the USSTRATCOM Commander, I have 
the ability to propose the evolution of the missile defense system 
based on all relevant requirements, acquisition, and budget 
information. This authority was necessary in light of the President's 
2002 directive to begin deployment in 2004 of a set of missile defense 
capabilities that would serve as a starting point for improved and 
expanded missile defense capabilities later.
    I present to you two telling quotes from the 2006 Defense 
Acquisition Performance Assessment (DAPA) report chartered by the 
Department.

    ``[T]he budget, acquisition, and requirements processes are not 
connected organizationally at any level below the Deputy Secretary of 
Defense. This induces instability and erodes accountability. 
Segregation of requirements, budget and acquisition processes create 
barriers to efficient program execution.''
    ``Acquisition programs need to deliver timely products. Our 
assessment is that the culture of the Department is to strive initially 
for the 100 percent solution in the first article delivered to the 
field. Further, the ``Conspiracy of Hope'' causes the Department to 
consistently underestimate what it would cost to get the 100 percent 
solution. Therefore, products take tens of years to deliver and cost 
far more than originally estimated.''

    Well, the DAPA report could have cited the one place in the Defense 
Department below the Deputy Secretary where requirements, acquisition, 
and budget authority comes together--the Missile Defense Agency. This 
authority has given me the trade space to make a balanced 
recommendation to the Deputy Secretary that has paid dividends for 
defense of our homeland, deployed forces, allies, and friends.
    MDA has fielded an initial capability consisting of 24 Ground-Based 
Interceptors; 17 Aegis BMD warships capable of long-range surveillance 
and tracking, of which 12 are also capable of missile intercepts; 25 
Standard Missile-3 interceptors for Aegis BMD warships; 18 SM-2 Block 
IV interceptors; an upgraded Cobra Dane radar; two upgraded early 
warning radars; a transportable X-band radar; a command and control, 
battle management, and communications capability, and a sea-based X-
band radar. None of this capability existed as recently as June 2004. 
This rapid fielding would never have been possible unless I had the 
integrated decision authority over requirements, acquisition, and 
budget. I think it is fair to say that this capability would have taken 
2 to 3 times longer to field under standard Department practices--if 
not the ``tens of years'' cited by DAPA.
    Should this integrated decision authority be continued now that we 
have successfully met the President's injunction to quickly field an 
initial capability where no capability had previously existed? I would 
make four key points in favor of retaining this authority.
    First, the Director of MDA is in the best position to know the 
program's progress and challenges. This does not mean that I make 
decisions in a vacuum. We work closely with the intelligence community, 
the war fighter, and the Services on the threat, capability needs, and 
available resources. In addition to the external oversight from your 
committee and others in Congress and, of course, the Government 
Accountability Office, I also receive significant Department-level 
oversight from Under Secretary AT&L, the Office of the Secretary of 
Defense Comptroller, and the Missile Defense Executive Board. However, 
it does mean that I have a degree of control and trade space that is 
not available to the managers of other major defense acquisition 
programs.
    Second, because the ballistic missile threat is always evolving, we 
need to be as agile as possible in getting the latest capabilities to 
the war fighter. The integrated requirements, acquisition, and budget 
authority granted MDA's Director inevitably enables us to deliver a 
capability more quickly to meet the evolving missile threat.
    Third, while some see MDA's flexibilities as undeserved special 
treatment, others view MDA's integrated decision authority as, in 
effect, a ``test lab'' for the Under Secretary of Defense AT&L to 
examine alternative, creative approaches to acquiring joint 
capabilities.
    Fourth, ballistic missile defense is and always will be the 
quintessential joint program. No one Service could easily or naturally 
take responsibility for developing, testing, integrating, and fielding 
the BMDS. The trade space offered me as portfolio manager of the entire 
BMD program is considerably wider than it would be if MDA were wedded 
to one Service or merely an advocate within the Office of the Secretary 
or joint staff who is trying to negotiate with a myriad of individual 
program managers protecting their own turf.
    On a personal level, I take my stewardship responsibilities very 
seriously. I will not be in this position forever, and I know how 
vitally important it is to put my successor in the best position to 
give the war fighter the capabilities needed to negate the threats to 
our homeland, deployed forces, allies and friends. The integrated 
decision authority granted me as MDA Director does just that, and I 
urge your continued support.
                      organizational reengineering
    MDA's reengineering goal is to transform the organization into a 
single, integrated high-performance team capable of sustaining its 
development and test successes and maximizing its efficiency and 
effectiveness in acquiring, fielding, and supporting an integrated, 
operational BMDS. To accomplish this goal, I have established policies 
and defined responsibilities for providing qualified matrix support to 
the program directors/managers (PD/PM) responsible for delivering BMDS 
capabilities to the COCOMs. Matrixing is an organizational concept that 
consolidates skills and resources under a functional manager who, in 
turn, allocates persons and resources among executing organizations 
needing these skills. Matrixed support includes such functions as 
engineering, contracts, business/financial management, cost estimating, 
acquisition management, logistics, test, safety quality and mission 
assurance, security, administrative services, information assurance, 
and international affairs. The matrix management process aims to 
strengthen PD/PM capabilities by assuring their accessibility to all 
expertise available to MDA; increasing accountability for quality of 
functional staff work; and allocating personnel resources according to 
the Agency's needs.
    MDA has established the following objectives to focus the 
reengineering efforts:
  --Implement a full matrix management construct to strengthen 
        functional responsibilities at both the BMDS and element level 
        of program execution
  --Establish key new or restructured organizations and centers to 
        strengthen the implementation of an integrated system
  --Establish key knowledge centers to focus MDA resources on and 
        within critical mission technical areas \7\
---------------------------------------------------------------------------
    \7\ Knowledge centers for Interceptors, C2BMC, and Sensors were 
established in January 2008. Centers for Space and Directed Energy will 
be established later in 2008.
---------------------------------------------------------------------------
  --Complete an organizational alignment assessment to improve agency 
        efficiency and effectiveness through elimination of redundancy 
        of functions and infrastructure, multiple layers of management 
        and non-critical functions, and a verification that resources 
        are aligned with MDA priorities
  --Relocate MDA offices from the National Capital Region (NCR) to 
        Huntsville and selected other locations to realize the benefits 
        of a centralized control/decentralized execution strategy, 
        facilitate leveraging all resources available in MDA and 
        propagate better cross-flow of expertise and information.
                  base realignment and closure (brac)
    The 2005 Defense Base Realignment and Closure Commission approved 
recommendations directing the realignment of several MDA directorates 
from the NCR to Government facilities at Fort Belvoir, Virginia, and 
the Redstone Arsenal in Huntsville, Alabama. Specifically, a 
Headquarters Command Center for MDA will be located at Fort Belvoir, 
while most other MDA functions will be realigned to Redstone Arsenal. 
The transfer of Government and contractor personnel from the NCR is 
already in progress; by the end of 2008, we will have transitioned some 
1,100 personnel positions to the Arsenal. Also, construction will start 
in fiscal year 2008 on additional facilities to be opened in two phases 
in fiscal year 2010 and fiscal year 2011. Construction of the MDA 
Headquarters Command Center (HQCC) is also scheduled to begin in late 
fiscal year 2008, with occupancy in fiscal year 2010.
        missile defense agency engineering and support services
    Consistent with the Agency's reengineering, MDA has undertaken the 
task of improving how it procures contractor support services (CSS). 
The objectives of the change are to improve oversight, enable matrix 
management so the Agency can benefit more from cross-flow of 
information among different offices, enhance efficiency and 
transparency, and more accurately account for our cost of doing 
business. I have determined that the best path forward is to develop a 
new Agency-wide procurement; the designation for this procurement is 
Missile Defense Agency Engineering and Support Services (MiDAESS).
    We currently receive contractor support through a variety of 
different avenues, such as contracts, other Government agencies, and 
General Services Administration orders. Over the next few years, the 
MiDAESS procurement will allow us to consolidate the CSS into a more 
efficient procurement, focused on the primary areas of technical, 
administrative, financial, and other support that our agency requires.
    Beginning in March 2007, we began discussions with our industry 
partners regarding MiDAESS. Throughout 2007, MDA has received industry 
feedback and continues to refine the details of how competition and 
contracting within MiDAESS will function. We plan to begin initial 
contract awards under MiDAESS in 2008.
                                closing
    Mr. Chairman and members of the Committee, in closing, I again want 
to thank you for your strong support of our program. Since 2002 we have 
achieved dramatic program efficiencies and effectiveness because we 
have been able to consolidate missile defense expertise and integrate 
all missile defense elements into a single, synergistic system. We have 
made tremendous progress deploying missile defenses to protect our 
homeland, our troops deployed and our allies and friends. I also 
believe we have the right program in place to address more advanced 
threats we may face in the future.
    Our investment in missile defense is significant, but our 
expenditures would pale in comparison to the overwhelming price this 
nation could pay from a single missile impacting America or one of our 
allies. We need your continued support to carry on the tough 
engineering and integration task of developing and enhancing worldwide 
ballistic missile defenses.
    This concludes my statement. I look forward to your questions.

    Senator Inouye. We now recognize General Campbell.
STATEMENT OF LIEUTENANT GENERAL KEVIN T. CAMPBELL, 
            UNITED STATES ARMY, COMMANDING GENERAL, 
            UNITED STATES ARMY SPACE AND MISSILE 
            DEFENSE COMMAND, UNITED STATES ARMY 
            STRATEGIC FORCES COMMAND AND JOINT 
            FUNCTIONAL COMPONENT COMMAND FOR INTEGRATED 
            MISSILE DEFENSE
    General Campbell. Mr. Chairman, Senator Stevens, 
distinguished members of the subcommittee, thank you for your 
ongoing support to missile defense.
    Today, I'll give you the user's perspective of these 
capabilities. I'm able to report with confidence the combatant 
commanders' input into the ballistic missile defense system 
(BMDS) continues to expand.
    Last year I outlined a process named the warfighter 
involvement process. As a result of the continued maturity of 
the program, we're seeing substantial warfighter-requested 
modifications incorporated into the ballistic missile defense 
system.
    The operators remain fully integrated into the Missile 
Defense Agency's test program. Our involvement spans from the 
development of test objectives to operators sitting at the 
consoles and executing the engagements that you just witnessed 
in Trey's film.
    The flight tests attract the most attention but they are 
only one aspect of a comprehensive testing campaign. Our 
operators also participate in frequent ground testing and 
hardware in-the-loop testing. The warfighters are able to 
identify more effective methods for employing the systems and 
assist the testing cadre and developers in identifying problems 
long before we move to flight test. These tests in turn 
influence further program developments.
    The operational commands clearly recognize the threat we 
face today from both short- and medium-range missiles. Today we 
can't meet all of the combatant commanders' needs. We must 
continue our close coordination with the Missile Defense Agency 
to ensure the missile defense portfolio addresses the 
warfighter needs for the near-term threats as well as the mid- 
to the far-term threats.
    Maintaining a balanced investment portfolio is critical. 
Although we understand the potential adversaries' inventories 
of short- and medium-range missiles today are significant, we 
cannot lose sight of the qualitative improvements nations are 
making in their ballistic missile systems.
    Our investments for both the near and far term must be 
informed by both the quantitative and qualitative advancements 
our adversaries are making in their programs.

                           PREPARED STATEMENT

    Mr. Chairman, provided congressional support, we will 
continue to develop, field and improve an integrated missile 
defense for our Nation and our deployed forces and our friends 
and allies.
    I look forward to your questions.
    Senator Inouye. Thank you very much, General Campbell.
    [The statement follows:]
       Prepared Statement of Lieutenant General Kevin T. Campbell
                              introduction
    Chairman Inouye, Ranking Member Stevens, and Members of the 
Committee, thank you for your ongoing support of our military and for 
the opportunity to appear again before this panel. As I shared last 
year, I do believe that this Committee is a strong supporter of the 
Army and the missile defense community. This is especially important as 
we continue to field missile defense capabilities and to continue 
development of future capabilities for the Nation and our allies. Along 
with those testifying today, I am an advocate for a strong global 
missile defense capability.
    The Committee is no doubt familiar with my duties and 
responsibilities as the Army's senior commander for space and missile 
defense as well as my position as the Commander of the Joint Functional 
Component Command for Integrated Missile Defense, a part of the U.S. 
Strategic Command (USSTRATCOM). In this role, I serve as the Joint user 
representative working closely with the Missile Defense Agency (MDA), 
other services, and Combatant Commanders to ensure that our national 
goals of developing, testing, and deploying an integrated missile 
defense system are met in an operationally sound configuration.
    Mr. Chairman, please rest assured that America's Army stands on 
point to defend our Nation against an intercontinental ballistic 
missile attack. Our soldiers continue to be trained and ready to 
operate the Ground-based Midcourse Defense (GMD) Element of the 
Ballistic Missile Defense System (BMDS) at Fort Greely, Alaska, 
Vandenburg Air Force Base, California, and the 100th GMD Brigade's 
Missile Defense Element at Schriever Air Force Base, Colorado. These 
soldiers, as part of the Joint team, continue to serve as our Nation's 
first line of defense against any launch of an intercontinental 
ballistic missile toward our shores. I am proud to represent them along 
with the other members of the Army and Joint integrated missile defense 
community.
  united states strategic command jfcc-imd: planning, integrating and 
                      coordinating missile defense
    The Joint Functional Component Command for Integrated Missile 
Defense (JFCC-IMD), U.S. Strategic Command's global missile defense 
integrating element, has been operational for 3 years. The JFCC-IMD 
continues to be manned by very capable Army, Navy, Air Force, Marine 
Corps, and civilian personnel.
    USSTRATCOM, through the JFCC-IMD, continues to aggressively execute 
its mission to globally plan, integrate, and coordinate missile defense 
operations. Through a deliberate training and exercise program, the 
JFCC-IMD has improved our collective ability to defend this Nation. 
While the organization is still maturing, JFCC-IMD continues to lead 
the Department's transformation toward more robust integrated missile 
defense capabilities. The soldiers, sailors, airmen, marines, and 
civilians of this Joint warfighting organization execute our mission to 
plan, integrate, and coordinate global missile defense operations and 
support by operationalizing new capabilities from MDA, developing 
global missile defense plans in collaboration with the Geographical 
Combatant Commanders, and conducting cross-geographical combatant 
commander exercises to eliminate seams and gaps in order to maintain a 
strong defense against advancing threats. In summary, JFCC-IMD 
continues to build operational competence and warfighter confidence in 
the execution of our mission.
Continued Ballistic Missile Defense System Progress
    This past year has been another year of operational achievement for 
integrated missile defense. Since the last time I addressed this 
Committee, the Global Ballistic Missile Defense System has gone from 
test-bed operations to a system configured to support continuous 
defensive operations. Whether a test bed with a residual operational 
capability, or an operational system that supports research and 
development activities, it is understood that our efforts and decisions 
must be entirely focused along two lines--operational capability and 
spiral development of the BMDS system. We balance both fielding of 
near-term and development of long-term capabilities to meet the 
evolving threat to the homeland. This balance cannot be achieved 
without comprehensive dialogue between MDA, the services, and the 
warfighters--dialogue that is ongoing today and dialogue that must 
continue in the future.
    We are continuing to expand the current ballistic missile defense 
operational configuration. This past year, the early warning radar at 
Fylingdales Royal Air Force Base was upgraded to perform the missile 
defense mission. This radar is a key element of the BMDS for providing 
the initial limited defense capabilities to counter the emerging 
ballistic missile threat from Southwest Asia. The radar will also 
continue to perform its traditional role as an early warning radar. The 
addition of this radar marks the beginning of the integration of BMDS 
capabilities across five Combatant Commands to counter simultaneous 
ballistic missile threats from two ends of the globe. We expect the 
warfighting capability provided by such integration of platforms, 
doctrine, and personnel to continue to grow in the coming years to 
address emerging threats.
Continued Warfighter Contributions to BMDS System Development
    As warfighters, we continue to participate in key BMDS tests to 
build confidence in the system's capabilities and provide input to 
future capabilities. For example, the 100th Missile Defense Brigade 
provided a trained and certified crew in support of a successful GMD 
flight test on September 28, 2007. Their support started with 
participation in pre-mission training conducted in both Huntsville, 
Alabama, and at their GMD Fire Control (GFC) consoles at the Missile 
Defense Element (MDE) at Schriever Air Force Base, Colorado. The crew 
provided critical expertise that enhanced system performance, assisting 
the engineers with validation of pre-mission parameters. These pre-
mission events culminated with the conduct of the flight test, where 
the crew provided the Human-In-Control actions necessary for a 
successful launch and intercept. The Brigade will also support the 
upcoming GMD flight test. For this flight test, the AN/TPY-2 Forward 
Based X-Band and Sea Based X-band (SBX) radars will be integrated into 
the GMD system to validate their operational utility and to provide 
data for anchoring our modeling and simulation efforts.
    Since last year's testimony to this Committee, we successfully 
intercepted ballistic missiles at low and high altitudes; in midcourse 
and terminal phases; and in endo- and exo-atmospheric environments with 
our long-range ground-based interceptor, the Terminal High Altitude 
Area Defense (THAAD), and several AEGIS Standard Missile-3s (SM-3s). We 
supported an International BMD Partner with a successful exo-
atmospheric intercept from a Japanese Maritime Self Defense Force 
Destroyer. Conducting these system-level flight and ground tests 
required the use of operational assets, the same assets that would be 
used to defend this Nation and our allies against a possible rogue 
state missile attack. JFCC-IMD worked closely with the Combatant 
Commanders and MDA to coordinate the availability of these assets to 
ensure sustained operational readiness during the conduct of the 
system-level tests.
    The JFCC-IMD was able to balance the requirements of both 
operations and tests. This period of robust achievements underscored 
the warfighter's requirement to expedite development and deployment of 
a concurrent testing, training, and operations (CTTO) capability. We 
have made strides but we still have a ways to go. CTTO will permit 
developers and operators to maintain an operational capability of the 
BMDS while simultaneously developing, testing, or training on the 
system. Absent a mature CTTO capability, JFCC-IMD aggressively conducts 
an asset management process to ensure the highest level of operational 
readiness during the conduct of materiel development and tests.
Continued Advancements in System Capability
    JFCC-IMD, in partnership with MDA and the services, has integrated 
additional missile defense sensors and shooters to enhance theater and 
strategic mission capabilities. We have institutionalized the 
Operational Readiness and Acceptance (OR&A) process to deliberately 
activate capabilities by baselining the known capabilities and 
limitations. Through this process, activation criteria, which are 
critical to establishing and maintaining capabilities, are clearly 
defined to ensure sustainable systems are provided to the warfighter.
    We continue to refine our processes to ensure the warfighters' 
desired operational capabilities are considered by the materiel 
developer. Since I last appeared, the Warfighter Involvement Process, 
known as the WIP, has matured significantly. Warfighter inputs and 
subsequent changes to the overall BMD system of systems started slowly 
but are steadily increasing in effectiveness. After 2 years of operator 
generated input, we are now seeing changes incorporated in the BMDS. 
More significantly, capability requests are being reflected in 
USSTRATCOM's Prioritized Capability List submissions and in MDA's 
corresponding Achievable Capabilities List.
    A success story in the WIP process is our partnership with MDA, the 
services, and the Combatant Commanders in the expansion of the BMD 
capability into the European theater. In my role as the JFCC-IMD 
Commander, I have held discussions with the European Command to build 
stronger partnerships with our Allies should our Government conclude 
agreements for hosting a midcourse radar and interceptor site in 
Europe. If approved, the expansion of the BMDS into Europe will greatly 
increase the security of the United States as well as provide a measure 
of protection to our forward deployed forces and European allies that 
currently does not exist.
    Looking forward, we are engaged with the Department to balance the 
missile defense portfolio to ensure we are addressing both the threats 
of today and tomorrow. With more than 20 countries, several of which 
have an adversarial relationship with the United States, now possessing 
ballistic missile capability and technology, the threat to the United 
States and our allies is growing. The missile defense investment 
portfolio must address the warfighter needs for the near-term threats 
from these countries while developing new technologies to deter 
potential adversaries from their continued investment in ballistic 
missile technologies.
    To guide the planning of a near-term and long-term investment 
portfolio, the Department is conducting a number of studies, including 
the latest iteration of the Joint Capability Mix (JCM) Study. The 
intent of the JCM II Study was to explore and assess aggregate BMDS 
capabilities and provide analysis in support of determining the 
appropriate BMDS weapon and sensor mix to address the ballistic missile 
threat for two near simultaneous major combat operations in the 2015 
timeframe. The results of the recently completed study indicate a 
future need for additional THAAD and SM-3 inventory. With the 
warfighter analysis, MDA is seeking to identify and allocate sufficient 
resources to address the requirement during the upcoming Program 
Objective Memorandum cycle. In addition to the JCM effort, JFCC-IMD is 
also coordinating an employment strategy of the AN/TPY-2 (aka Forward 
Based X-Band Radar) to enhance global and regional missile defense 
capabilities. This employment strategy considers various aspects of 
military utility and geopolitical concerns to inform leadership toward 
a decision. Other efforts that impact force structure and inventory 
requirements include various wargames and exercises to define the 
future operational concepts, including wargames with our allies.
Taking Care of our Warfighters
    If we receive approval to proceed with a European capability, we 
need to ensure we provide quality facilities and services to our 
soldiers. If built, the European capability will most certainly be an 
enduring mission. The mission support infrastructure (barracks and 
morale and welfare facilities) is just as important to mission success 
as the hardware the soldiers will operate. We believe that the mission 
support facilities ``outside the wire'' are an integral part of the 
overall system. The investment in mission support infrastructure 
contributes immensely to the overall reliability of the system and the 
cost represents a very low percentage of the overall system 
construction and fielding cost.
    We should continue to work to improve the quality of life at our 
missile defense garrison at Fort Greely, Alaska. Soldiers in the 49th 
Missile Defense Battalion of the Alaska Army National Guard continue to 
defend the United States from ballistic missile attack from the 
remoteness of Fort Greely, Alaska. They continue to do so in an 
outstanding manner, without complaint, in an environment with 
infrastructure that does not meet current standards. While the Army is 
taking proactive steps to improve the quality of life at Fort Greely, 
the isolation of this remote location cannot be overstated. On the 
positive front, the Army recently awarded a contract to privatize the 
family housing at Fort Greely--soldiers and their families should start 
to realize significant housing improvements in the near future. Also, 
the Army is currently planning to replace an existing substandard fire 
station with one that will provide adequate coverage for Fort Greely's 
population and infrastructure. Challenges still remain as there is very 
limited support in the local community with respect to medical and 
dental care, special education needs, higher education opportunities, 
restaurant establishments, and other services that the vast majority of 
us take for granted. For example, the nearest medical specialist is 
over 2 hours away. This is very problematic, especially when one 
considers the extreme weather during the winter months. Our soldiers 
and their families deserve more--we need to provide the adequate 
facilities and the services they need. The Army will continue to 
address these challenges to ensure better living conditions are 
realized for our soldiers and their families.
                   army infrastructure contributions
    The Army also provides key test range assets for BMDS research and 
development. In addition to providing other vital Department 
capabilities, these unique facilities continue to serve as key BMDS 
system enhancers for MDA. The United States Army Kwajalein Atoll/Reagan 
Test Site (USAKA/RTS) in the Republic of the Marshall Islands has been 
instrumental in the development and testing of the GMD system. USAKA/
RTS will continue to serve as a significant test bed for future BMDS 
technology development. Also, within the BMDS arena, the High Energy 
Laser Systems Test Facility on White Sands Missile Range, New Mexico, 
is serving as a key lethality test bed for MDA's Airborne Laser 
Program. We ask for your continued support to ensure these vital 
testing ranges are postured to perform necessary BMDS testing.
   air and missile defense--an overview of the fiscal year 2009 army 
                           budget submission
    In addition to deploying the BMDS, MDA, the services, and the 
Combatant Commanders continue to focus on improving theater air and 
missile defense capabilities. GMD and Theater Air and Missile Defense 
Systems are vital for the protection of our homeland, deployed forces, 
friends, and allies. Air and missile defense is a key component in 
support of the Army's core competency of providing relevant and ready 
land power to Combatant Commanders.
    As the Secretary and Chief of Staff of the Army have previously 
testified, the Army is stretched after years of operating at war. To 
relieve the stress on the force, the Army is embarking on a path to 
restore balance. The Army's plan centers on four imperatives--sustain, 
prepare, reset and transform. As we have seen with other Army combat 
capabilities, the requirement for air and missile defense units 
continues to grow, stretching the force. Operation Iraqi Freedom 
consumes significant quantities of our key missile defense 
capabilities, leaving other worldwide commitments under-resourced.
    Already well underway, the Army has created composite air and 
missile defense battalions to transform the Air Defense Artillery into 
a more responsive and agile organization. These battalions address 
capability gaps, permitting us to defeat cruise missiles and unmanned 
aerial vehicles while maintaining our ability to defend critical assets 
from the ballistic missile threat. Composite air and missile defense 
battalions will capitalize on the synergies of two previously separate 
disciplines--short-range air and missile defense and high-to-medium 
altitude air and missile defense. Additionally, the Army has pooled air 
defense artillery battalions at the theater-level to provide air and 
missile defense protection based on the situation and mission 
requirements. This pooling concept supports the Army's effort to move 
to modular designs that allow force tailoring of units better sized to 
meet the Combatant Commander's needs.
    With that as a brief background, let me now focus on the Army's 
fiscal year 2009 budget submission for air and missile defense systems. 
The recently submitted President's Budget includes approximately $2.23 
billion with which the Army proposes to execute current Army air and 
missile defense responsibilities and focus on future development and 
enhancements of both terminal phase and short-range air and missile 
defense systems. In short, the Army is continuing major efforts to 
improve the ability to provide warning, acquire, track, intercept, and 
destroy theater air and missile threats.
Army Integrated Air and Missile Defense (IAMD) System of Systems (SoS)
    In order to enhance its ability to destroy theater air and missile 
threats, the Army is continuing to transform its air and missile 
defense force from its traditional system-centric architecture to an 
integrated, component-based, IAMD SoS. The Army IAMD SoS Program 
provides full, network-centric, plug-and-flight integration of existing 
and future air and missile defense systems and enables their full 
technical, functional, and procedural integration into the Joint IAMD 
arena. This modularization of air and missile defense capabilities will 
allow Joint Force Commanders to scale and tailor air and missile 
defense components functioning interdependently to deliver operational 
capabilities not achievable by the individual elements of the system. 
Given the diversified air and missile threat set and the limited 
resources to address the threat, development of IAMD SoS is the Army's 
top air and missile defense priority.
    In addition to the IAMD SoS interdependent capabilities, the Army's 
air defense community has initiated plans to meet the future challenges 
and demands, taking steps to sustain, prepare, reset, and transform our 
forces and equipment. These plans entail three main component areas of 
the Army's air and missile defense construct--terminal phase ballistic 
missile defense, cruise missile defense, and force protection.
Terminal Phase Ballistic Missile Defenses
    The PATRIOT/Medium Extended Air Defense System (MEADS) capability 
is designed to counter theater ballistic missile threats in their 
terminal phase in addition to cruise missiles and other air-breathing 
threats. Combining these systems with the soon to be deployed Terminal 
High Attitude Area Defense (THAAD) system brings an unprecedented level 
of protection against missile attacks to deployed U.S. forces, friends, 
and allies well into the future.
PATRIOT/PATRIOT Advanced Capability-3 (PAC 3) Overview
    PATRIOT is the world's only battle-proven theater AMD system and 
will be a key AMD element for the next two decades, providing Combatant 
Commanders with modular, scalable, mission-tailored capabilities to 
greatly enhance operational force protection in support of the Joint 
team. The PATRIOT is the Nation's only deployed, land-based, short-to-
medium range BMDS capability.
    The Army recognized that the PATRIOT force was heavily stressed and 
therefore developed a strategy to Grow-the-Force through a combination 
of pure-fleeting the existing PATRIOT force to PAC-3 capability and 
standing up two additional PAC-3 battalions. This strategy will 
increase our capacity to handle today's threat and alleviate logistical 
and training challenges of maintaining two separate PATRIOT 
configurations. Pure-fleeting of the PATRIOT force with PAC-3 will 
allow for improved capability and higher lethality against the Theater 
Ballistic Missile (TBM) and non-TBM threat as well as enable 
commonality across all Doctrine, Organization, Training, Materiel, 
Leadership and Education, Personnel and Facilities (known as DOTMLPF) 
domains in the PATRIOT force. Also, the additional two battalions of 
PATRIOT PAC-3 capability will meet the growing demands of the Combatant 
Commanders to provide global AMD against the entire threat set. Fiscal 
year 2007 reprogramming actions and fiscal year 2008 funding initiated 
this strategy--funding in the amount of $492.8 million in the fiscal 
year 2009 budget request will complete these initiatives and continue 
PATRIOT modifications.
    Last year, my statement addressed the ongoing PATRIOT fixes to 
operational deficiencies that were deemed necessary as a result of 
friendly fire incidents. The Army has taken steps to address lessons 
learned and correct the deficiencies. Based on the current fielding 
schedule, all Operation Iraqi Freedom fixes will be completed during 
fiscal year 2009.
Medium Extended Air Defense System (MEADS) Overview
    A top Army priority system for defense against short- and medium-
range tactical ballistic missiles and air breathing threats, the MEADS 
system will be an integral part of the Army Integrated AMD System of 
Systems and capable of operating within a Joint and coalition 
operational environment. The system will provide wide-area protection 
at strategic, operational, and tactical levels.
    MEADS, a cooperative development program with Germany and Italy, 
will provide a lighter, more deployable, maneuverable, lethal, network-
centric AMD capability. The program also includes development of the 
PAC-3 Missile Segment Enhancement (MSE) as the objective tri-national 
MEADS missile. The PAC-3 MSE is currently under development and will be 
integrated into the MEADS program. The MSE missile will provide a more 
agile and lethal interceptor that expands the engagement envelope of 
this system. The fiscal year 2009 budget request includes funding for 
MSE initial production facilities--production of the MSE is scheduled 
to begin in 2010. Fielding of MEADS is scheduled to begin in 2015 and 
be completed by 2028. We are confident that this path will provide our 
forces, allies, friends, and our Nation with the most capable air and 
missile defense system possible.
Terminal High Attitude Area Defense System Overview (THAAD) Overview
    The Department of Defense is committed to fielding an advanced 
capability to defend against tactical ballistic missiles as soon as 
possible. THAAD is designed to provide a layered theater ballistic 
missile defense in support of the short and medium range ballistic 
missile threat. MDA is funding and manufacturing four THAAD batteries 
for the Army in an accelerated fielding that will commence in 2009. 
THAAD capabilities will begin to transfer to the Army in 2009. 
Synchronization between the Army and MDA is crucial in both the 
development and funding areas in order to ensure that the transition 
delivers a supportable warfighting system.
    To fully optimize the performance of the PATRIOT, MEADS, and THAAD 
defense systems, effective personnel training and development is 
essential. The United States Army Fires Center of Excellence at Fort 
Sill, Oklahoma, will provide our Nation with the best trained, 
organized, and equipped Air Defense Artillery leaders and units in 
response to current operational needs and future force warfighting 
concepts.
Joint Tactical Ground Station (JTAGS)
    JTAGS is a transportable information processing system that 
receives and processes in-theater, direct down-linked data from Defense 
Support Program satellites. JTAGS provides our commanders with early 
warning of ballistic missile attack and essential information to defeat 
TBMs. The system disseminates warning, alerting, and cueing information 
on TBMs, and other tactical events of interest throughout the theater 
using existing communications networks. JTAGS determines the TBM source 
by identifying missile launch point and time and provides an estimation 
of impact point and time. Since the system is located in-theater, it 
reduces the possibility of single-point-failure in long-haul 
communication systems and is responsive to the theater commander. JTAGS 
also fulfills the in-theater role of USSTRATCOM's Theater Event System 
(TES). It is imperative that JTAGS be funded to integrate and evolve to 
use the next generation of Space Based Infrared System sensors. This 
will significantly enhance warning accuracy and timeliness while 
improving all aspects of theater missile defense. We request your 
continued support of this essential capability.
Cruise Missile Defense
    Our adversaries understand the value of cruise missiles. They are 
inherently very difficult targets to detect, engage, and destroy, and 
when armed with a weapon of mass destruction warhead, the effects from 
a cruise missile are catastrophic. The Army's Cruise Missile Defense 
Program is an integral element of the Joint cruise missile defense 
architecture. We are also working closely with the Joint community to 
assure development of doctrine that synchronizes our military's full 
capabilities against the cruise missile threat. Critical Army 
components of the Joint cruise missile defense architecture are 
provided by the Joint Land Attack Cruise Missile Defense Elevated 
Netted Sensor System (JLENS), the Surface-Launched Advanced Medium 
Range Air-to-Air Missile (SLAMRAAM), and the PATRIOT MSE missile. These 
systems are on schedule to provide an initial operational capability by 
2012. Additionally, these systems will be networked within the IAMD SoS 
architecture, have an integrated fire control capability and operate 
within a common command and control system. Initial operational 
capability is planned for 2014.
Force Protection
    In the conduct of Operation Iraqi Freedom, insurgents continue to 
pose serious dangers by employing indirect-fire tactics of quick-
attack, low-trajectory, urban-terrain-masked rocket, artillery, and 
mortar (RAM) strikes against U.S. forward operating bases in Iraq. To 
combat this threat, the Army developed a Counter-Rocket, Artillery, 
Mortar (C-RAM) capability--an integrated set of capabilities to provide 
warning and intercept of RAM threats. The primary mission of the C-RAM 
project is to develop, procure, field, and maintain a capability that 
can detect RAM launches; warn the defended area with sufficient time 
for personnel to take cover; intercept rounds in flight, thus 
preventing damage to ground forces or facilities; and enhance response 
to and defeat of enemy forces. C-RAM utilizes a system of systems 
approach and is comprised of a combination of multi-service fielded and 
non-developmental item sensors, command and control elements, and a 
modified U.S. Navy intercept system. The system utilizes a low cost 
commercial off-the-shelf warning system and a wireless local area 
network. Advances in the C-RAM capability will continue with funding 
that is requested in the fiscal year 2009 budget submit.
    Efforts are also underway to use the benefits of directed energy to 
potentially counter the RAM threat. Developmental work by joint 
entities within the Department is producing results that are promising. 
Within the next few years, through the Army's High Energy Laser 
Technology Demonstration Program, we are very hopeful we will produce a 
mobile solid state laser weapon system that will serve as a 
complementary resource to the present and future kinetic energy 
capability in countering RAM projectiles. Your continued support in 
this area will ensure we advance indirect fire protection capabilities.
                               conclusion
    Mr. Chairman, the Army is a member of the Joint team fighting an 
adaptive enemy in a persistent conflict while transforming to meet 
future threats. We have responsibility for GMD, THAAD, PATRIOT, and 
MEADS and will continue developing and fielding an integrated missile 
defense for our Nation, deployed forces, friends, and allies. 
USSTRATCOM, through the JFCC-IMD, will continue to develop a Joint BMDS 
capability to protect our Nation, deployed forces, friends, and allies. 
The fiscal year 2009 budget proposal supports the transformation of the 
Army's air, space, and missile defense force to support the Army's 
future force, the Joint Integrated AMD System, and our global BMDS. We 
will continue to work with MDA, the services, and Component Commanders 
to define the characteristics of the emerging air, space, and missile 
defense force and determine how it can best support the warfighter and 
our Nation.
    I appreciate having the opportunity to speak on these important 
matters and look forward to addressing any questions you or the other 
Committee members may have.

    Senator Inouye. I'd like to now recognize for questioning 
our in-house expert on missiles, Senator Stevens.
    Senator Stevens. You're very gracious. Thank you very much, 
Mr. Chairman.
    General Campbell, you've been up to Fort Greely several 
times and we've got the Alaska Guard taking over additional 
roles there on that site.
    Are you satisfied with the progress that's being made, and 
can you tell us, do you have any change in plans in mind?
    General Campbell. Senator Stevens, I'm satisfied that we're 
moving in the right direction in terms of progress.
    The missile defense system itself is a great system, a lot 
of significant investment has been put into the missile system, 
and I pay a lot of attention to the mission support 
infrastructure; that is, Fort Greely itself, it supports our 
soldiers.
    With your help, we've made some significant improvements 
but there's still more to be made in the future to support the 
spouses and the children that are at Fort Greely, but I'm 
satisfied that we're moving in the right direction.
    Senator Stevens. Well, I'm worried about this new paradigm 
on earmarks, General. We've got a situation and Fort Greely was 
subject to base realignment and closure (BRAC), and then we 
decided to put the missile defense system right adjacent to it 
and now we have the Guard and their families living at the old 
Fort Greely, but that has not really been upgraded to meet the 
situation of a permanent facility for those people.
    Are you going to be able to make a request through the 
budget process to get that or are we going to be forced to have 
an earmark again?
    General Campbell. Well, I think it may be a mixture of 
both, but we have programs already in place. For example, on 
the mission support side, recently it was approved that we'll 
go ahead and privatize all the housing at Fort Greely, along 
with Fort Wainwright. So that is a major step forward, sir, 
that solves one of the most pressing problems at Fort Greely.
    The Installation Management Command is also helping us with 
the community activities center that they're going to build for 
us over the next couple years.
    So I think we have the major programs in place. I'm not 
saying we don't need additional help, but we're pushing on the 
right programs to get them into the budget so Fort Greely can 
be modernized.
    Senator Stevens. Well, I'm worried about the adequacy of 
medical facilities not only for the eventuality of any kind of 
emergency there but also for family medical care. That clinic 
has really, you know, never been upgraded.
    Are you looking into that?
    General Campbell. Yes, sir, we are. In fact, my chief of 
staff just returned Friday night. We had the medical command 
with us in Alaska. In fact, Lieutenant General Eric Schoomaker 
will visit next month. They have already initiated a contract 
to actually improve the Delta Junction Family Medical Clinic 
which our spouses and children will be able to use. So that's 
an initial step which will put new equipment into his facility. 
We'll be able to conduct telemedicine out of his facility.
    And the Fort Wainwright medical commander also sends a 
physician to Fort Greely once a month. It's a different type of 
specialist, based on the needs. So we're making progress. I 
don't think we're at the end state yet, but we've made the 
right moves immediately to solve some of that pressure on the 
families.

               EUROPEAN MISSILE DEFENSE SITE NEGOTIATIONS

    Senator Stevens. General, we've got in this request, I 
understand, $712 million to develop the area for 10 ground-
based interceptors in Slupsk, Poland, and a missile tracking 
radar in the Czech Republic.
    Can you tell us how are those negotiations going on? Will 
you be able to spend that money this year, fiscal 2009?
    General Obering. Yes, sir. First of all, the negotiations 
with the Czech Republic have basically come to a conclusion and 
we do expect an agreement to be signed in the very near future 
with the Czech Government and then that will go into their 
parliamentary ratification process.
    When the Polish Government changed out several months ago, 
there was a pause in the discussions with the Poles as the new 
government basically got in place. We resumed negotiations with 
the Poles. That's been lagging behind the progress that we made 
with the Czechs, but I believe that at this point, I'm still 
optimistic that we will get an agreement that we can work 
through by the end of this year and then that will set us up to 
where in 2009, we're able to go through all of the contractor 
selections and that type of thing to begin the construction in 
late 2009 for the missile field and for the radar site.

                     EUROPEAN MISSILE DEFENSE SITE

    Included in the $712 million, just to make sure that we're 
encompassing, is the request for the money for the radar site, 
the money for the interceptor site, as well as the long lead 
that we would need for a portable radar that is part of this 
overall construct.
    Senator Stevens. Will that new site provide any protection 
for the United States from Poland?
    General Obering. Yes, sir, it will. The reason that we 
selected Poland and the Czech Republic as the primary midcourse 
radar and the interceptor sites was very simple. We looked at 
all the trajectories from Iran, all the launch points and all 
the possible impact points in Europe and in the United States 
that forms a trajectory of fans, a fan trajectory, and in order 
to cover those, Poland the Czech Republic provided the optimum 
solution for that coverage.
    In addition, you have to worry about being too close or 
being too far back. If you're too close to the launch point, 
since we don't have a boost phase capability today, then you 
would not be able to engage all of the threats that we would 
need to, and also if you're too far back, you begin to roll 
back the coverage that you need for some nations that could be 
put at risk from a longer-range threat.
    So the range considerations as well as the azimuth is why 
we selected Poland and the Czech Republic. That means we can 
engage threats from Iran to Europe obviously as well as from 
Iran into the United States.
    Senator Stevens. Well, Mr. Chairman, I think we ought to 
have a classified briefing on that in terms of the interface of 
that system with our side. I don't think many Members of 
Congress realize that there is that collateral benefit for this 
location and it's something we should maybe even take a group 
over to look at and understand.

                             AIRBORNE LASER

    My last question would be about the airborne laser. We have 
had, you know, total confidence in that system and it seems to 
be on track, but are you going to be able to demonstrate that 
system soon and how soon?
    General Obering. Sir, the airborne laser has met all of its 
knowledge points to date and the tremendous success last year, 
was that we demonstrated the capability that we need to shoot 
down a ballistic missile.
    Now that means that we were able to fire the high-energy 
laser for a total of over 70 times in a 747 fuselage at Edwards 
Air Force Base. In parallel, we took the heavily modified 747 
that also has a tracking laser and an atmospheric compensation 
laser on board, along with a surrogate of that high-energy 
laser. We fired the tracking laser, and the atmospheric 
compensation laser last year and the surrogate and we were able 
to track a target in the atmosphere, a boosting fighter as well 
as the big crow target that we used to emulate an early version 
of a target of a boosting missile.
    We achieved all of those knowledge points, as I said, which 
means that today the aircraft is down on the ground. We have it 
opened up. We have installed all six of the large laser modules 
onboard the aircraft now. We're in the process of finishing up 
the installation, the plumbing and all of that. We're doing 
some refurbishment on the optical train and making some 
adjustments that we learned from our testing and then we plan 
to get back in the air early next year and shoot down, about 
midyear, a boosting missile.
    Senator Stevens. And when will that have emergency boost 
phase capability?
    General Obering. Well, sir, the aircraft itself, in an 
absolute emergency, could provide that, we would be 
demonstrating that next year. But then what we would anticipate 
is that we're going to take all of our lessons learned and put 
that into a transition period, continue to fly the aircraft and 
continue to learn from it and then determine how we can make 
the second and third and fourth aircraft affordable and as 
operationally affordable as we can make it.
    Senator Stevens. Thank you very much. I'll have some 
additional questions I'll submit for the record, Mr. Chairman.
    Senator Inouye. Senator Cochran.

                  MISSILE DEFENSE SYSTEM CAPABILITIES

    Senator Cochran. Mr. Chairman, we understand that there are 
critics of our missile defense efforts. Some say it costs way 
too much, more than is necessary to spend, that the systems 
we're deploying or developing are vulnerable to decoys and 
other interference that would cause them to not work properly, 
and that it really spurs an international missile race and 
missile defense race, provoking other nation states to try to 
deal with the reality of threats that they may face.
    I know that there's always going to be somebody, a 
naysayer, with criticism. From the very beginning, missile 
defense has been controversial in that regard because there's 
always more than one witness available to testify at hearings 
and cast doubt upon our capabilities.
    But it seems to me that this recent experience we just had 
and the video you showed us is very strong and compelling 
evidence that we have developed a sophisticated and capable 
system to defeat missile attacks, even though that wasn't what 
we were trying to defeat then, but it's very clear it was quite 
similar.
    Is it an overstatement or an exaggeration to say that this 
is good solid evidence of the capability of missile defense 
systems that we are now developing and deploying?
    General Obering. Sir, I would tell you that I'm confident 
in the capabilities of the systems that we've deployed to 
address the threats that we anticipate we would face.
    I will tell you that what most of the critics ignore, 
frankly, if I could zero in on a couple of things, number one, 
they ignore the fact that we are building an integrated layered 
system. They overlook that and so there are a lot of facets to 
this that allow us to handle increasing complexity as we move 
to the future.
    For example, when you often talk about can you handle 
decoys or countermeasures, and I tried to point out in the 
video that we have an inherent ability on the kill vehicle 
itself, just by itself, to handle what we call simple 
countermeasures, and in fact we have flown against simple 
countermeasures in our past test program with a prototype of 
that kill vehicle.
    But they ignore the other components that we're bringing 
into this fight, the very powerful X-band radars, similar to 
what we have now in test off the coast of Hawaii, the sea-based 
X-band radar. They ignore the forward-deployed X-band radar, 
like we have in Japan. They ignore the combination of sensors 
that we can bring to bear with all the advanced algorithms to 
help us sort through what those threats would be.
    And then for the future, we are bringing two other critical 
components. One is to be able to track these threats from the 
very birth to their intercept and that's what we want to use 
with our space tracking and surveillance system that we plan to 
launch with two different satellites this year, and the second 
critical component is once we sort through these threat sweeps 
to be able to kill more than one object and we do that with our 
multiple kill vehicle program.
    So when you take that in combination, it is, I think, 
prudent to think that we can keep up with the emerging threats 
that we may face for the future.
    In terms of costs, if I could, and you've probably heard me 
say this, it is expensive, but it is certainly not as expensive 
as withstanding an impact of a weapon of mass destruction on an 
American city or one of our allied cities. That would be far 
more expensive and far more tragic and far more devastating.
    So if we can prevent just one of those, we will have paid 
for this program many, many times over for every penny that's 
been appropriated for it, and it's even better than insurance 
because it actually prevents the event from occurring as 
opposed to being reimbursed for it.
    And finally, in international, there is already a missile 
race, so to speak. That's for offensive missiles. We've seen 
that spreading across the world for these past several years 
and decades, and it's gotten to the point now where access is 
getting easier and easier to these missiles.
    Frankly, I would like to see a missile defense race because 
what I'd like to see us do is join together between United 
States, NATO, Russia and others to field effective missile 
defenses because I think that would have an effect on the 
proliferation of the offensive missiles, because I think one of 
the reasons they've been so proliferated is--historically 
there's been no defense against them.
    If we can show there is a defense against them, that we can 
destroy them, it may make countries think twice about heavily 
investing in those systems.

                        MISSILE DEFENSE AND NATO

    Senator Cochran. One concern is whether or not our NATO 
allies are cooperating and helping as part of our agreement for 
joint defense activities, whether they're doing enough.
    I'm aware of the fact that we're trying to deploy a radar 
system and I think the discussions are ongoing with the Czech 
Republic and others on that subject.
    What is the level of cooperation and support that we have 
among our NATO and other allies?
    General Obering. Well, sir, just recently, there's been a 
couple of significant major milestones.
    Number one, the most important probably is that at the 
recent NATO Summit in Bucharest, there was a communique that 
was signed by all NATO members that strongly endorsed the idea, 
the concept that there is an emerging missile threat that we 
have to concern ourselves with; second, that the United States 
proposals bring merit and are valid and useful in addressing 
that threat; and third, they tasked their own NATO members to 
come back with options as to how they build shorter-range 
defenses to integrate with the longer-range capabilities that 
we're proposing.
    Now NATO has what they call an active layer theater missile 
defense program, they've had for several years, in which 
they're building the backbone of the command and control 
network that would then integrate the various member nations' 
components and several of the member nations are pursuing 
missile defense efforts from Patriot PAC-3 to sea-based to 
different sensors and other capabilities.
    If they're doing enough, that's not my call in terms of the 
policy determination, but they certainly are stepping up to the 
plate, based on the recent developments, and the last thing I 
want to tell you very quickly is in January, we did a 
demonstration of taking U.S. information from our command and 
control and battle management system and running that on the 
NATO system, the NATO command and control system for missile 
defense and we did vice versa.
    We took NATO data and ran that on the U.S. system and we 
showed how we can begin to integrate these capabilities to form 
basically a regional architecture in that theater.
    Senator Cochran. Thank you very much. Thanks, Mr. Chairman.
    Senator Inouye. Senator Shelby.

                       KINETIC ENERGY INTERCEPTOR

    Senator Shelby. Thank you, Mr. Chairman. General Obering, 
the kinetic energy interceptor (KEI) received a funding boost 
in 2008 with Congress, I thought, demonstrating that this 
program should move forward.
    What steps are you taking to ensure that the KEI is 
restored to a fully mobile weapon system, and do you have 
adequate resources to achieve this?
    General Obering. Well, sir, first of all, yes, sir, the 
Congress did appropriate and plussed-up the KEI Program. We 
view that as a very, very critical and valuable program to the 
overall portfolio. Not only does it serve as an alternative if 
the airborne laser trips up in its technical risk, but it also 
provides an option for a mobile midcourse capability.
    Now, just like all of our programs, though, we hold them to 
our knowledge points that they have to meet. What they have to 
specifically meet is a very high acceleration booster flight in 
2009 because that is the critical component of what they bring 
to the table.
    Senator Shelby. They have to perform, in other words?
    General Obering. Yes, sir, they have to perform, and so we 
are measuring that program's progress in being able to achieve 
that.
    Now this year, there's a couple of setbacks; while we had 
successful static fires in the past, we were going to an 
optimized design for flight, and we had a couple setbacks in 
the second stage static fire. We had burn-throughs in the 
nozzle. We think that we do have root cause for that, what 
occurred and why, and the folks are working to correct that.
    Senator Shelby. Think you can fix that?
    General Obering. Yes, sir, and that should put us or keep 
us on track for that flight in 2009. I've already given them 
the direction to begin to expand their system engineering work 
and they're to begin that ramp-up in anticipation of that 
success, but we are going to still hold them to that knowledge 
point.

                       ADVANCED HYPERSONIC WEAPON

    Senator Shelby. Sure. General Campbell, advanced hypersonic 
weapon (AHW). Last year Congress appropriated, I believe, $41.7 
million for the advanced hypersonic weapon. Shouldn't AHW, the 
advanced hypersonic weapon, continue to be included as part of 
the prompt global strike (PGS) initiative? In addition to 
working with the Air Force, what is the Army and the Space and 
Missile Defense Command (SMDC) doing to ensure that the 
advanced hypersonic weapon continues to receive congressional 
backing? In other words, where are you on this?
    General Campbell. Yes, sir. We're working closely with U.S. 
Strategic Command and General Chilton and the U.S. Air Force's 
Space and Missile Center. We're trying to reach agreement, 
particularly with the Air Force, where the technologies we're 
working on AHW, would be used in their particular program. 
Their PGS, their Precision----
    Senator Shelby. How do you feel about that? Is that good?
    General Campbell. I feel that's very good, and I think 
there's technologies there that are valuable in the development 
of their system. So that's the path we've taken with General 
Chilton and the Air Force, is to contribute to the development 
of their particular program.
    Senator Shelby. Do you think that weapon system is very 
important then?
    General Campbell. I think that the technologies are going 
to be very important for a prompt global strike weapon system 
in the future.
    Senator Shelby. General Obering, the Missile Defense Agency 
Engineering and Support Services (MiDAESS)--is that what we 
call it--contract, the MDA Engineering Services, I think, is 
very important.
    A number of small businesses have expressed concern that 
they were not being afforded the opportunity to compete for a 
lot of the technical work. I've mentioned this to you in our 
last meeting.
    What are you doing to ensure that small businesses will be 
able to compete for this work, and when do you expect a final 
RFP to be released? You're very familiar with this.
    General Obering. Oh, yes, sir. For context, the reason 
MiDAESS is so important is that as we move those nearly 2,300 
people from the Washington area into Huntsville, and as we 
consolidate and integrate more and more of our capabilities 
across the agency, it became obvious to us that we had an 
unnecessary overhead burden, so to speak, in contract 
management. We had many, many, many contracts of engineering 
and support services from a variety of locations that, when we 
consolidate, we can streamline and be able to eliminate some of 
that.
    We issued a draft request for proposals because we wanted 
industry engagement on that. We are--we want and encourage 
small business to participate in that and we will ensure that 
occurs, and I believe that after this next round of comments 
that we get from industry, we can anticipate the request for 
proposal (RFP) to be released in the next several months.
    Senator Shelby. Thank you. Thank you, Mr. Chairman.
    Senator Inouye. Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman. I 
wanted to tell you, I haven't publicly been able to 
congratulate you, and I do that today, on your recent marriage 
and I look forward to meeting your spouse. We're going to have 
her up here pretty soon, right?

                      AMERICAN TECHNICAL EXPERTISE

    Senator Inouye. I'll be having her here.
    Senator Domenici. We hope so. Thank you. Well, let me--I 
have a parochial question regarding the High-Energy Laser 
System Test Facility (HELSTF), but let me ask General Obering a 
general question regarding the status of the American economy 
and economic potential as it applies to your work.
    I'm involved right now in my waning months as a Senator in 
trying to finish up some of the things that we need to do to 
make sure that the nuclear powerplants and nuclear power gets 
really firmly placed and that we have a civilian waste disposal 
recycling program. You probably understand that because it's 
part of general science.
    But what we're finding as we get new proposals to build, 
there are seven full applications for nuclear powerplants and 
we had 27 years without any. We passed a new law with the help 
of everyone. I was chairman when we did it. A great law. That's 
what brought seven. It looks like we'll have 25 within a year--
new applications at the Nuclear Regulatory Commission.
    General, what they're finding as they look at the very 
first one and second one is that America has lost its manpower 
base and they can't find 2,600 workers, steelworkers and 
ironworkers, to go work on a powerplant, even at $40 an hour, 
which is what they're starting.
    The whole build-up of nuclear powerplants is now looking at 
the fact that American industry doesn't have the capability of 
providing the infrastructure that it used to. So we have to go 
overseas and wait in line and we don't have anybody that makes 
the steel things that we need, believe it or not. We used to be 
the giant and it looks like we're hurting.
    Now as the overseer of what you do for the Air Force and 
therefore for America in space, could you give us a quick 
assessment? Is there ample supply of--are there ample people 
qualified and trained to do the kind of sophisticated work that 
you're doing in behalf of the American people or are you 
finding it more difficult to find scientists, engineers and the 
like out of college and women and the like to join you? Could 
you address that for us, please?
    General Obering.  Yes, sir. First of all, what we have 
noticed is that do we have enough people to accomplish what we 
need to get accomplished, the answer is yes. However, is it an 
ongoing task to make sure that we are continuing to find 
trained people and that we are continuing to pass on, frankly, 
information from generations of my age or older to the younger 
generations and that's what's become problematic, is making 
sure that has been occurring because there was a period in 
which we lost the recipe in some of that transformation and 
we're beginning to see some of the--I think some of the 
initiatives that many companies have taken to try to readdress 
that.
    I'll give you a couple of examples. As you remember, we 
suffered from some mission assurance problems in late 2004/
early 2005 in our long-range program, and we discovered that 
the ability to bring to bear the adequate systems engineering 
resources to that problem was one of the contributing factors 
leading up to that.
    We made adjustments and Boeing made adjustments to be able 
to address that and they really imported some of the knowledge 
from some of the graybeards, so to speak, and some of the other 
areas of their particular company.

                       DIRECTED ENERGY AND LASERS

    There are areas that we're on the edge. I think the 
directed energy is one of them and being able to have and 
continue to concentrate enough talent to be able to keep that 
ongoing and that's why I think the airborne laser is also one 
of the reasons it's such an important program to focus their 
talents and their capabilities.
    Senator Domenici. What is directed energy? Tell me.
    General Obering. Directed energy is the use, for example, 
of lasers.
    Senator Domenici. Yes.
    General Obering. There's other applications, but that's the 
primary one that we use. Products----
    Senator Domenici. So you're not alone in using that. That's 
used--lasers are used by the Department of Energy in----

                        MISSILE DEFENSE PRODUCTS

    General Obering. Yes, sir. But the megawatt class that 
we're using and we're pushing the state of the art in terms of 
beam control, fire control, being able to control the jitter in 
these and the power itself.
    Senator Domenici. Okay.
    General Obering. Products, we have to concern ourselves in 
some areas. For example, batteries has always been a major 
concern. The thermal batteries and to get the battery 
efficiency that we need. We monitor that all the time, being 
able to address that in our industrial base.
    The thermal coatings and protections for our nozzles is 
another major problem in terms of rayon has always been the 
material of choice but we are running out of the supplies of 
rayon across not only the defense but the space industry as 
well and so we concern ourselves with how we address that.
    So we have--I have a group that's solely dedicated to 
monitoring the production and the industrial base for missile 
defense so that we can try to lead turn those problems and try 
to address those.

                        HIGH ENERGY LASER SYSTEM

    Senator Domenici. Thank you very much. Let me ask, General 
Campbell, with reference to High Energy Laser System Test 
Facility, HELSTF. On page 10 of your statement, I found it 
here, you mention that ``within the Ballistic Missile Defense 
System, BDMS, arena, the high-energy laser system on White 
Sands Missile Range is serving as a key lethality test bed for 
MDA airborne laser program.''
    Those are your words. What's the Army current 2009 spending 
plan for HELSTF, and, second, if HELSTF is conducting key 
tests, why have you proposed budget cuts of almost $13 million?
    General Campbell. Yes, sir. The budget for 2009 will look 
as the budget is in 2008. It was approximately $2.9 million.
    In our discussions that we had more than 1 month ago, sir, 
you know my sense of this, that it's an important national 
facility. The issue became affordability for us and having 
customers pay for some indirect costs.
    Since our meeting, I've worked with the Missile Defense 
Agency on specific tests and the Missile Defense Agency has 
invested some dollars into the continuation of HELSTF, and I've 
addressed this back with the testing personnel at OSD, that we 
have to take a relook at this for continuing that particular 
contract.
    But the bottom line, even if the contract were to go away, 
we want to preserve the facility. We'll have to mothball the 
MIRACL laser, but we see value as the solid state lasers come 
on to use that facility for the development of those tactical 
level systems.

                       MDA NEED FOR MIRACL LASER

    Senator Domenici. All right. General Obering, in your memo, 
you gave me a memo on March 5 related to MDA and using a mid-
infrared advanced chemical laser, MIRACL, at HELSTF for high-
energy laser testing for our airborne laser program.
    The Army's decision to close HELSTF adversely affects our 
ability to conduct testing that will ultimately increase 
program costs and risks.
    Can you elaborate on this need in this setting, and you 
also wrote of a potential requirement to use HELSTF in the 
fiscal year 2010? Would you please explain that?
    General Obering. Yes, sir. We really need to be able to use 
that MIRACL laser as part of a parallel testing effort to 
continually look at the effectiveness of what different modes 
of lethality that we can employ to understand the phenomenology 
of the interaction between the laser and various materials, 
that type of thing. That is the instant requirement and it is a 
program in the near term that we need to get wrapped up this 
year for our testing and I think we just released an additional 
$2 million, if I recall, to the facility.
    I'm to the point, sir, where I will fund that to get that 
testing done because it's that critical to us and so that is my 
intent for this year.
    As we look to the future, as General Campbell said, it 
would be nice to have that option available, should we have to 
revisit some of this testing and ongoing evaluations of 
lethality, and I think that's important.
    Senator Domenici. Should we consider transferring HELSTF to 
the Missile Defense Agency since it seems to me they're 
interested in all of HELSTF's capabilities?
    General Obering. Sir, I get accused of taking too much 
stuff under our wing enough, but it is part of a larger 
national range structure that General Campbell alluded to in 
his comments, and I'd like to be able to work with those folks 
to see if we can't do better in supporting that overall.
    Senator Domenici. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Inouye. Thank you, sir. General Campbell, I'm 
encouraged and impressed by the success of the Aegis Program.
    Assuming that the program continues to enjoy successes, 
when do you believe more interceptors will be deployed to aegis 
ships, and when will the program be turned over to the Navy?
    General Campbell. Let me first address the missiles and 
it's difficult for me to speak for the Navy when the aegis 
system itself is in the Navy today and Trey may be able to talk 
to that with a little more detail.
    But in terms of missiles, as you know, we completed a joint 
capabilities mix study recently and that study suggested that 
we should double the number of SM-3 missiles for our deployed 
forces.
    The Missile Defense Agency has taken that recommendation 
and they're now putting those numbers into the program 
objective memorandum (POM) so that we can purchase those 
missiles in the out-years. So I don't see it occurring over the 
next 2 or 3 or 4 years. That will be later in the POM period 
for doubling, nearly doubling the SM-3s.

                       MDA JOINT PROGRAMS--JAPAN

    Senator Inouye. General Obering, Japan is a significant 
partner in missile defense and we've been advised that they 
appropriated $6.7 billion since 2004 for these cooperative 
programs.
    Can you provide us with an update on the status of these 
joint programs and assure us that the agency's committed to 
full development of the standard missile block 2-A with the 
Japanese?
    General Obering. Absolutely, sir. They are among the 18 
nations that we have some type of relationship around the 
globe. They are clearly the most energetic and also the one 
nation that is bringing as much as they can to bear with 
respect to their own resources.
    We have a program in which we are developing and delivering 
the current version of the aegis missile, the block 1-A that we 
talk about, that's what was used in the recent test in December 
off the Hawaii coast, to be able to be deployed eventually on 
four Japanese ships. They are in the process also of procuring 
and have deployed the PAC-3 in their country.
    We have ongoing efforts with respect to the ability to 
share information between our systems and their systems by 
being able to connect our command and control systems so that 
we can provide, for example, radar data from the radar in 
Shariki to the Japanese systems and then vice versa some of 
their radar data. We'd like to have access to some of the 
radars they're developing around their nation.
    Of course, the cornerstone going into the future is this 
very solid cooperation between the Japanese and ourselves on 
the block 2-A. We've had a series of reviews this year on the 
U.S. side as well as on the Japanese side. We get together for 
the combined system review this year as well. So that program 
is well on its way. They have my commitment to be able to meet 
our schedule for that program, to be able to develop a unitary 
kill vehicle for what we call the block 2-A version, and so 
far, I think that we're doing very well.
    Now, there will be challenges because there's challenges 
with any major development program. You're going to have 
setbacks here and there. You're going to have unforeseen events 
that are going to happen as we go through this development, but 
I feel very strongly and I feel very good that we have good 
working relationships on both sides of the Pacific and good 
processes by which we can evaluate these trades as we move 
forward.

                   MDA TARGETS SHORTFALL AND FAILURES

    Senator Inouye. General Obering, the availability of 
targets seems to be the pacing element for missile defense 
tests. Take for example the THAAD Program. It slipped, I 
believe I've been told, by 6 months because of shortage of 
targets.
    What are you doing to respond to the target shortfalls?
    General Obering. Yes, sir. First of all, if I can again put 
this in perspective, in our 42 flight intercept tests that I 
referred to earlier since 2001, we've had target failures in 
two of those. One of those was a THAAD target. That was a HERA 
target that THAAD was to fly against. We also had two other 
target failures in what we call radar characterization flights.
    Now, it is not a substantial percentage but it is worrisome 
enough that I wanted to take a look to understand what was 
going on in the targets program, and we discovered several 
things.
    Number one, we discovered that we had management 
inexperience on the Government side and, frankly, we had 
inexperience on the contractor side. So we have since changed. 
We changed out the Government side, the contractor has changed 
out their side.
    In addition, we had a requirements process that was driving 
too much variability to go into a single target. So it was 
causing a swirl of requirements that was increasing costs and 
causing some of the schedule delays.
    We have since imposed a much more disciplined and rigorous 
requirements process between our engineering and our element 
program folks and the targets folks and so I believe that with 
these steps that we've taken that will address the issue that 
you referred to.
    The THAAD Program, along with the aegis and GMD, they 
always are a challenge with respect to the cost growth, things 
that we are asking them to do, in addition to what they had 
baselined or cost growth that they get from within their 
program, and all of that for the THAAD Program also went into 
that delay in terms of the flight tests.
    But I feel pretty good that we have this now back in hand 
and with your help, and we may need some help, by the way, sir, 
in 2009 with respect to the monies, additional monies that we 
may want for targets, I think we'll be back on track.

                             AIRBORNE LASER

    Senator Inouye. If I may ask a question, General Campbell, 
on the airborne laser program.
    How is this program going to be used in warfare, and how 
many platforms would you require to perform this mission, and 
do you have any idea as to the cost of developing and fielding 
these systems?
    General Campbell. To the developmental costs and the 
fielding, I leave that to General Obering, but some of the 
initial work that I've seen from the Missile Defense Agency, if 
you look at maintaining it in orbit, say, to protect from a 
North Korea shot, you're going to have multiple aircraft to 
maintain one orbit.
    Now I don't know what it costs to maintain one orbit over 
time. It's threat-dependent as to how long it would have to 
have these aircraft in the air.
    In terms of operationally how we would employ them, right 
now we would see them being under the control of a regional 
commander working back with Strategic Command and Northern 
Command in support of the continental United States, but in 
terms of overall costs or operationally, I don't know what the 
cost is per hour at this point to keep one orbit, but it is 
multiple aircraft to just maintain an orbit.
    Senator Inouye. One--multiple aircraft for one?
    General Campbell. Multiple aircraft to maintain an orbit.
    General Obering. Sir, if I may address that as well? That 
is, by the way, having the ability to maintain a 24-hour orbit 
is what you would require two or three aircraft to be able to 
do. That is not unlike what we do today with AWACs and Joint 
Stars. It's the same type of construct.
    The other thing to remember is that with the airborne 
platform, the airborne laser, you are shooting down multiple 
missiles with the single platform, whereas in our other 
programs, we're having to shoot in some cases multiple 
interceptors to take out the single missile and so there's a 
multiplication factor there that goes into play when you start 
thinking about cost affordability.
    Finally, that's also what I alluded to earlier about going 
into this period of transition, not unlike, by the way, what we 
did with THAAD, to make sure that as we look at our successes 
in our test program and look at all the lessons learned and 
then factor that into can we get this to be operationally 
affordable for the forces and for the warfighter and that's 
part of the calculation that we have to do in that period.
    Senator Inouye. So you're not ready to give us numbers?
    General Obering. No, sir, not yet. I can tell you what it 
would take to get us to shoot down which is the tail end of 
about a $4.5 billion effort that we've been underway for many 
years, but in terms of what the overall life cycle cost of the 
program would be, that's part of what we want to make sure we 
understand in this transition period.

                                 THAAD

    Senator Inouye. Well, General Campbell, THAAD has been 
performing well. If this success continues, do we have any 
funding in the Army to take over the system?
    General Campbell. Sir, that--the actual transition and 
transfer is being worked between the Army and the Missile 
Defense Agency, so that we understand principally the 
operational and sustainment costs of the system.
    It is a concern of the Army's; that is, long-term 
affordability. We're working closely with the Missile Defense 
Agency to understand that, so that we can compete that in the 
out-year POMs. So that it's hard to answer your question today 
precisely when we don't know the precise costs yet.

                            COUNTERMEASURES

    Senator Inouye. One of the areas of concern for us would be 
enemy countermeasures. Can you tell us what you're doing about 
this?
    General Obering. Yes, sir. There's several steps. Number 
one, we are launching two space tracking and surveillance 
system satellites this year. This will--these two satellites 
which will go up in tandem on a single launch vehicle will work 
together to demonstrate that we can do precise tracking from 
space. Otherwise, the kind of tracking that we now use our 
land- or sea-based radars to do, we'll be able to do from 
space.
    We have plans for a follow-on to that will get us a small 
constellation that will be sufficient, though, to provide us 
with what we call birth-to-death tracking. From the time that a 
missile is launched, as it goes through its phases, to the time 
that we intercept it, we'll be able to do that tracking. That's 
the first key element of how you deal with countermeasures.
    The second portion is to shoot that missile down while it 
is still boosting and that eliminates any having to deal with 
countermeasures in subsequent phases and, of course, the two 
programs we have there, airborne laser and the kinetic energy 
interceptor, but they're still several years away from being 
operational. So we have to worry about what do we do in the 
interim.
    The next phase is or the next portion of this is to be able 
to do the advanced discrimination that allows us to handle 
those more complex decoys and countermeasures and that consist 
of the more powerful sensors. It consists of the more advanced 
algorithms that we're deploying on those sensors, in fact we 
have some in test right now, that we will be able to use for 
discrimination.
    The final component, a qualitative component, is that we 
will be able to take out more than one credible object. So as 
we go through this process, if we have a very complex threat 
suite with many, many dozens of countermeasures, we will be 
able to sort out down to a manageable number what are credible 
objects or could be credible warheads, and then we basically 
destroy all of those in a shotgun effect with our multiple kill 
vehicle.
    So it is a layered approach that we're taking to this, and 
in addition, as we move in the future, we will be able to deal 
in more inventory numbers that will augment what I just said.
    So we think we're on a path to deal with this. We have some 
of the world's leading experts that are looking at this and, by 
the way, the other thing that we do is we fly these, we fly 
these ourselves. So we have a critical measurements and 
countermeasures program that we employ to do these measurements 
ourselves. We fly critical--I mean very complex countermeasures 
against our own sensors and against our own capabilities and 
that's part of why we are building confidence in being able to 
address this.
    Senator Inouye. Senator Stevens made a suggestion that 
maybe we should have classified hearings and maybe take a visit 
because your agency has a major role in the next, well, 
evolution step of warfare and admittedly we know very little 
about what is happening in your agency and yet we know in our 
guts that it is very important because you are dealing with the 
most potentially dangerous areas, areas that could end up in an 
explosion that would cover the globe.
    So do you think we should have something like that?
    General Obering. Sir, we would welcome that.
    Senator Stevens. I'd have one last question, Mr. Chairman.

                       NUMBER OF GMD INTERCEPTORS

    Are you concerned about the adequacy of the inventory of 
interceptors for testing? I would address both of you. We have 
competing priorities, I'm sure, in the missile defense area, 
but operationally, it seems that to meet the current ballistic 
missile threat, you really have to have a lot of testing.
    Do we have the number of interceptors in our inventory that 
we need?
    General Obering. Sir, I think that from a developmental 
perspective, I would like to be able to add that--for example, 
as we process a long-range interceptor for test or a THAAD or 
aegis, I would like to have another interceptor that we process 
in parallel.
    By the way, the same thing is true with targets because I 
think that gives us the ability to recover from hiccups that we 
have in that processing and so I would very much support that. 
We're trying to balance as much as we can the needs for this, 
as you just described, along with making sure that we at least 
maintain our options for the future. So that's why we 
continually are balancing this equation.
    Senator Stevens. What about you, General Campbell?
    General Campbell. These tests are so critical for the 
users, so that we can better understand the system that we're 
operating today, and I agree with what General Obering said, 
that I like this notion of having a parallel missile available 
should something happen to the primary missile.
    Again, the tests give us critical insights into the system 
that we're operating today and it gives us insights into how it 
behaves and how we can change the behavior of that system.
    Senator Stevens. As you go forward now with the airborne 
laser, will you have to have an increased inventory to deal 
with that?
    General Obering. Sir, we have targets planned for that 
program. We have those programmed into our program.
    Senator Stevens. They're adequate now?
    General Obering. Yes, sir, so far.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Stevens. Thank you very much, Mr. Chairman. Thank 
you very much, gentlemen.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
     Question Submitted to Lieutenant General Henry A. Obering III
            Question Submitted by Senator Richard C. Shelby
    Question. It seems to me that early and prolonged success of our 
systems will be possible only if we can provide for the adequate 
integration of these forces by somehow netting them together into a 
system of systems. For example, the sensor information could be netted, 
and the warfighters provided with the composite information at the 
appropriate levels.
    What is being done within the Army and Missile Defense Agency to 
bring forward sensor netting technologies that would enable warfighters 
at all levels to share information needed to fight successfully?
    Answer. The MDA is addressing the sensor network challenge of 
creating a real-time multi-sensor track picture of the battlespace that 
the warfighter needs to successfully execute the mission, through what 
is called the Global Sensor Integrated Network (GSIN). MDA is involved 
at all levels of the GSIN work from the top (Committee of Principals) 
down through the two-star level Senior Steering Group and the GSIN 
Transformation Teams. MDA has representatives on four of the five GSIN 
teams and is Co-Leader of the GSIN Technical Implementation Team. 
GSIN's goal is to ``Enable a unified national architecture for 
integrated sensor information in support of theater and strategic 
missile warning, missile defense and space situational awareness 
missions.''
    To build a fused track picture, the BMDS ideally must: globally 
track missiles of all ranges in all phases of flight (birth-to-death 
tracking); maintain single tracks across all sensors per tracked 
object; and combine discrimination information from all sources for 
each object. MDA is aggressively pursuing multiple system level 
functions needed to enable this netted sensor capability. The functions 
MDA is working on include:
  --BMDS System Track.--This C2BMC function will use system track data 
        from the radio frequency (RF) and infrared (IR) geographically 
        distributed BMDS Sensors to create a system track. The track 
        quality will improve over time with additional sensor coverage, 
        spectrum utilization (X-, S-, U-bands), RF/IR diversity, length 
        of time in track, and track geographic diversity. In addition 
        the results of BMD System Discrimination will be included in 
        BMD System Track as well as certain sensor provided target 
        features to enhance system engagement performance. Within 
        C2BMC, the Global Engagement Manager (GEM) will be the vehicle 
        to implement this functionality.
  --BMDS System Discrimination.--This function will integrate the 
        system track, discrimination, and target feature data to make 
        system level evaluations of the lethal object.
  --BMDS Sensor Registration.--This function will ``gridlock'' each 
        sensor to known locations and establish bias and location 
        errors. This is necessary to allow the correlation and 
        discrimination functions to occur and improve sensor netting 
        capability.
  --BMDS Correlation.--This function will associate track, 
        discrimination and feature data from numerous BMDS sensors (RF 
        and IR) into a consistent set of information using advanced 
        correlation techniques.
    The MDA has also entered into a Memorandum of Understanding (MOU) 
with the Army Program Executive Officer (PEO) Missiles and Space in 
March 2007 that directs the two organizations to collaborate on a host 
of common areas and to formalize relationships between various PEO MS 
and MDA elements in support of joint efforts to develop, field and 
support a reliable Integrated Air and Missile Defense (IAMD) system. 
The goal of the MOU is to leverage completed and ongoing initiatives 
leading to an economy of effort and resources. This will potentially 
create a win-win situation, system of system integration at an equal or 
reduced cost. Some of the ongoing collaborative areas include a common 
IAMD Extensible Markup language (XML), an integrated battle planning 
capability, and element/component level testing. This innovative 
strategy across multiple fronts will ultimately benefit the warfighter 
by providing a truly integrated ballistic missile defense capability, 
while potentially saving significant dollars for both the Army and MDA.
    The BMDS C2BMC program has also demonstrated the ability to share 
BMD data (i.e., tracks, engagement status, inventory, launch 
information, missile type, and threatened-assets) via Net Centric 
Standards (XML) to other commands, mission areas, and government 
agencies to improve warfighter integration and situational awareness.
                                 ______
                                 
       Question Submitted to Lieutenant General Kevin T. Campbell
            Question Submitted by Senator Richard C. Shelby
    Question. It seems to me that early and prolonged success of our 
systems will be possible only if we can provide for the adequate 
integration of these forces by somehow netting them together into a 
system of systems. For example, the sensor information could be netted, 
and the warfighters provided with the composite information at the 
appropriate levels.
    What is being done within the Army and Missile Defense Agency to 
bring forward sensor netting technologies that would enable warfighters 
at all levels to share information needed to fight successfully?
    Answer. In March 2007, MDA entered into a Memorandum of 
Understanding (MOU) with the Army that encourages collaboration on a 
host of common areas and to formalize relationships between MDA and 
Army elements in support of joint efforts to develop, field and support 
a reliable Integrated Air and Missile Defense (IAMD) system. The goal 
of the MOU is to leverage completed and ongoing initiatives leading to 
an economy of effort and resources. Some of the ongoing collaborative 
areas include a common IAMD Extensible Markup language (XML), an 
integrated battle planning capability, and element/component level 
testing. This innovative strategy across multiple fronts will 
ultimately benefit the warfighter by providing a truly integrated 
ballistic missile defense capability, while potentially saving 
significant dollars for both the Army and MDA.
    In addition, current Army air defense systems share sensor 
surveillance data (track and identification) and contribute to a Single 
Integrated Air Picture (SIAP) via joint tactical data links (JTDL). 
Joint Land Attack Cruise Missile Defense Elevated Netted Sensor System 
(JLENS), Sentinel and PATRIOT all contribute to a SIAP capability by 
distributing and receiving sensor surveillance data to/from the Link-16 
Joint Tactical Data Network (JTDN). JTDN data sources can include 
Higher Echelon Engagement Operations, joint systems such as Airborne 
Warning and Control System, and/or other Army air defense systems. 
Additionally, JLENS participates on the Navy Cooperative Engagement 
Capability (CEC) and Surfaced Launched Medium Range Air-to-Air Missile 
(SLAMRAAM) participates on the Joint Range Extension Application 
Protocol (JREAP) network.
    Current and new Army air defense systems are actively migrating to 
a net-centric approach to fighting, including the netting and fusing of 
sensor measurements and global tactical track and identification data, 
the use of joint SIAP and tactical data link solutions, and the sharing 
of improved sensor performance capabilities with all network 
participants. Not only does the Integrated Air Missile Defense (IAMD) 
netted approach allow the sharing of sensor data, it facilitates 
technology insertion and evolution of new capabilities, thus prolonging 
the success of our air defense systems. This effort is being led by the 
AIAMD Project Office within the Program Executive Office, Missiles and 
Space. Sensors (e.g. JLENS, PATRIOT and Terminal High Altitude Area 
Defense (THAAD) radars, Sentinel) and weapons (e.g., SLAMRAAM, PATRIOT, 
and THAAD) are being integrated into an Internet Protocol-based, 
Integrated Fire Control Network (IFCN). An IAMD Battle Command System 
(IBCS) is being developed to provide the command and control for this 
System of Systems (SoS). To support the net-centric approach to air 
defense, the IBCS is being designed to be configurable and scalable 
both vertically and horizontally within the operational organizations, 
to support collaborative and distributed planning and engagement, and 
to provide aids to assist the warfighter manage the more complex SoS.

                          SUBCOMMITTEE RECESS

    Senator Inouye. Well, gentlemen, thank you for appearing 
before the subcommittee today. As a result of your response to 
my last question, General Obering, the subcommittee will stand 
in recess until Wednesday, April 30, when we'll meet in closed 
session in S-407 to review your programs.
    General Obering. Thank you, sir.
    Senator Stevens. Thank you very much.
    [Whereupon, at 11:45 a.m., Wednesday, April 23, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
